<html>
<title> - NATO: A STRATEGIC CONCEPT FOR TRANSATLANTIC SECURITY</title>
<body><pre>[Senate Hearing 111-465]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-465
 
          NATO: A STRATEGIC CONCEPT FOR TRANSATLANTIC SECURITY

=======================================================================



                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
56-689                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Albright, Hon. Madeleine K., former Secretary of State, 
  Principal, Albright Stonebridge Group, Washington, DC..........     4
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    51
    Response to question submitted for the record by Senator 
      Robert P. Casey. Jr........................................    61
Craddock, Gen. John, U.S. Army (Ret.), former Supreme Allied 
  Commander-Europe, U.S. Army, Myrtle Beach, SC..................    32
    Prepared statement...........................................    34
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    52
    Responses to questions submitted for the record by Senator 
      Robert P. Casey. Jr........................................    60
    Responses to questions submitted for the record by Senator 
      Jim DeMint.................................................    62
DeMint, Hon. Jim, U.S. Senator from South Carolina, prepared 
  statement......................................................    23
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Kupchan, Charles A., professor of international affairs, 
  Georgetown University, senior fellow, Council on Foreign 
  Relations, Washington, DC......................................    42
    Prepared statement...........................................    44
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    58
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Shaheen, Hon. Jeanne, U.S. Senator from New Hampshire, prepared 
  statement......................................................    25
Volker, Hon. Kurt, former Permanent Representative to NATO, 
  senior fellow and managing director, Center on Transatlantic 
  Relations, Johns Hopkins University, Washington, DC............    36
    Prepared statement...........................................    37
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    54
    Responses to questions submitted for the record by Senator 
      Robert P. Casey. Jr........................................    61
    Responses to questions submitted for the record by Senator 
      Jim DeMint.................................................    63

                                 (iii)




          NATO: A STRATEGIC CONCEPT FOR TRANSATLANTIC SECURITY

                              ----------                              


                       THURSDAY, OCTOBER 22, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Cardin, Webb, Shaheen, Kaufman, 
Lugar, Corker, DeMint, and Barrasso.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order. Thank you 
all for joining us this morning.
    Today we will discuss the future of our NATO alliance. 
Earlier this week in Afghanistan, I saw firsthand NATO's single 
largest present-day commitment. Let me tell you, whatever our 
differences, we need to acknowledge that our allies have made 
enormous sacrifices in Afghanistan. They, too, are serving 
heroically. While questions remain on both sides of the 
Atlantic about the future of our Afghan mission, our confidence 
in the idea and the cohesion of NATO remains strong. Our 
commitment to defend our NATO allies is unwavering.
    NATO turned 60 this year. As we all know, there have been 
times when NATO's critics called it ``an alliance in search of 
a mission.'' Today, as new challenges multiply and as old ones 
resurface, it's become clear that as long as NATO continues to 
adapt, it will remain essential going forward. The Strategic 
Concept review is an important vehicle for NATO to evolve. 
Recalibrating its priorities, reinventing itself, and preparing 
to protect the West from challenges both new and old. That's 
why, even as we grapple with Afghanistan, and other present 
concerns, it remains the right time for a public dialogue about 
NATO's future.
    In a recent speech at the Atlantic Council, our ranking 
member and my friend Senator Lugar was once again ahead of the 
curve in emphasizing the need for the alliance to incorporate 
emerging threats, such as terrorism and drug trafficking. I 
agree with that. We don't choose threats to our security, they 
choose us. If the alliance is serious about the security of its 
members, then it has to focus on the real threats.
    Of course, while the world has changed, we are still 
dealing with some of the same geostrategic and ideological 
concerns that brought NATO into being initially; in particular, 
the deep and durable commitment by like-minded democracies to 
cooperate closely and deter aggression, with a promise to rise 
up in defense of any NATO member under attack. This guarantee 
has actually helped to keep the peace. NATO has a proven record 
as a positive transformative force in Eastern and Central 
Europe, where an aspiration to NATO membership helped to bring 
about democratic reforms and stability. I hope we can also use 
this hearing to address the prospects for future NATO 
enlargement, to include Balkan nations, Georgia, and Ukraine. 
NATO Secretary General Rasmussen has made the establishment of 
strong relations with Russia a priority.
    If we are to consider President Medvedev's proposal for 
changes to Europe's security architecture, we should 
realistically build on the foundations that we already have, 
such as the OSCE. The potential for constructive relations, 
frankly, is enormous, but it will take an investment of trust 
and of confidence in order to break the bad habits of the past.
    Finally, the impending passage of the Lisbon Treaty, which 
consolidates power within the EU, makes it all the more 
important that we get the NATO-EU relationship right. As the EU 
grows in importance, we need to find a way for those two 
organizations to collaborate effectively. This is an 
opportunity to help bring about the stronger European partner 
that we have always sought, one more willing to share the 
burden of defending our ideals.
    I think we have two very highly qualified, very special 
panels here today. It's an honor to welcome our first witness, 
former Secretary of State Madeleine Albright, again coming back 
to this committee for I don't know what number visit, but the 
umpteenth. She served as America's top diplomat during a 
pivotal moment in NATO's history, when NATO countries used 
military force to end ethnic cleansing inside Europe. And that 
is, incidentally, not a fully resolved issue. I've been 
meeting, in the last days, with folks deeply concerned about 
the turn of events in Bosnia and what is happening, something 
that a strong European leadership will be essential to help us 
resolve.
    Secretary Albright also made history by helping to initiate 
the accession of Poland, Hungary, and the Czech Republic into 
NATO. As the sole American representative in Secretary General 
Rasmussen's Strategic Concept working group, Secretary Albright 
will help shape the future of an alliance to which she has 
already made extraordinary contributions.
    On our second panel, we have GEN John Craddock, who, until 
recently, served with distinction as Supreme Allied Commander-
Europe. We also have Ambassador Kurt Volker, formerly America's 
permanent representative to NATO. So, each of them bring 
firsthand experience to answering questions about the nature of 
NATO, the challenges that it faces, and its future.
    And finally, we are pleased to welcome Charles Kupchan, 
professor of international relations at Georgetown University, 
and a very respected scholar on European security.
    And I thank all of them for being here today.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you, Mr. Chairman, for this 
opportunity to continue our examination of the future of the 
NATO alliance. And I would add, as a personal thought and 
thanks to you, Mr. Chairman, for your own remarkable diplomacy 
in the past week. I admire your stamina, your ability to be 
present for this important hearing today, and I think----
    The Chairman. My body is here at least. [Laughter.]
    Senator Lugar. Well, both in wisdom and in spirit, you are 
here. We appreciate that.
    The Chairman. Thank you very much.
    Senator Lugar. And I join you in welcoming Secretary 
Albright and our other distinguished witnesses.
    For decades, as you pointed out, discussions of NATO 
frequently have begun with the premise that the alliance is at 
a crossroads, or even in crisis. When evaluating NATO, I start 
from the presumption that after 60 years it is still a work in 
progress. If one takes the long-term view, current alliance 
deficiencies, though serious, do not seem insurmountable. It's 
important to take stock of just how remarkable it is that NATO 
has enlarged from 12 to 28 countries and is now involved in 
combat 3,000 miles from Europe. NATO possesses enormous 
geopolitical assets and a history of achievements that, with 
the proper leadership, can undergird success in the future.
    The paramount question facing NATO today is how to 
strengthen the credibility of Article 5. Recent developments 
have eroded some of NATO's deterrent value. This erosion has 
occurred as members of the alliance have expressed less 
enthusiasm for NATO expansion and found an increasing number of 
reasons to avoid committing forces to Afghanistan. The decline 
in the deterrent value of Article 5 became more apparent with 
the onset of a string of energy crises in Europe and the 
adoption by several West European governments of beggar-thy-
neighbor policies with respect to oil and natural gas 
arrangements with the Russian Federation.
    The Obama administration's decision to alter missile 
defense plans also has implications for alliance confidence in 
Article 5. Iranian missiles never constituted the primary 
rationale for Polish and Czech decisions to buy into the Bush 
administration's plan; rather it was the waning confidence in 
NATO, and Article 5 in particular, that lent missile defense 
political credibility in those countries. The United States 
must be sensitive to events that have transpired in the broader 
European security environment since the Bush plan was proposed 
and negotiated. Our commitment to NATO remains the most 
important vehicle for projecting stability throughout Europe 
and even into the regions of Asia and the Middle East. It is 
critical that we reestablish the credibility of those 
assurances.
    An invigoration of NATO military exercises in Eastern 
Europe and joint planning for contingencies would be a first 
step. The administration also must raise the profile of United 
States political and economic cooperation with Eastern Europe 
and intensify military contacts with selected countries. The 
political and military reforms undertaken by NATO aspirants--to 
a large extent self-driven and self-funded--have been not only 
an important element of European stability during the last two 
decades, but also a foreign policy bargain for the United 
States and alliance taxpayers. We must continue to hold out the 
prospect of membership to qualified nations, including Ukraine, 
Georgia, and the entire Balkan region.
    We also must articulate a vision for NATO that both 
prepares for any potential threat from traditional rivals and 
develops new capabilities in meeting unconventional threats 
such as terrorism, drug trafficking, cyber warfare, WMD 
proliferation, and energy manipulation. The long-term success 
of the alliance may turn on how it deals with these threats.
    One particular gap in the last Strategic Concept, exposed 
by a series of crises and myopic responses, was its failure to 
incorporate energy security into NATO's mission. At the 2006 
Riga summit, I encouraged the alliance to make energy security 
an Article 5 commitment in which any member experiencing a 
deliberate energy disruption would receive assistance from 
other alliance members. We should recognize that an energy 
cutoff to an ally in the middle of winter could cause death and 
economic calamity on the same scale as a military attack. The 
Atlantic community must establish a credible and unified energy 
strategy.
    I have been encouraged that NATO has shown progress in 
making energy security part of its operational duties, 
including strategic planning, infrastructure protection, and 
intelligence analysis. This July, I witnessed firsthand how 
seemingly parochial interests can be surmounted for the common 
cause of energy cooperation. I was asked to represent the 
United States, along with our envoy for energy security, 
Ambassador Richard Morningstar, in Ankara for the signing of 
the landmark agreement among 12 countries and the European 
Union, to move forward on the so-called Nabucco gas pipeline, a 
breakthrough that had only dim prospects even 1 year ago.
    Though some allies have called for geopolitical 
retrenchment in response to perceptions that Article 5 
guarantees have declined in value, I believe the proper 
response is to strengthen those guarantees and find creative 
ways to address the more nuanced threats we face today. A new 
Strategic Concept simultaneously must reaffirm the fundamental 
value of NATO and reinforce those principles that led to its 
creation.
    I look forward very much to our discussion this morning.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Again, Madam Secretary, we're delighted to have you here. 
Thanks so much for taking time.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY OF 
  STATE, PRINCIPAL, ALBRIGHT STONEBRIDGE GROUP, WASHINGTON, DC

    Ambassador Albright. Well, thank you very much, Mr. 
Chairman and members of the committee. I am really delighted to 
be here again.
    And I do want to begin, Mr. Chairman, by congratulating you 
for your very creative and successful diplomacy in Afghanistan, 
and also to compliment the whole committee for holding this 
hearing.
    NATO is, above all, an alliance of democracies. Public 
discussion is a key attribute of democracy, and a discussion 
about NATO's present and future could not be more timely. 
Although I speak this morning only for myself, I am honored to 
serve as chair of that recently appointed group of experts 
which will offer advice to NATO Secretary General Rasmussen on 
a new Strategic Concept for the alliance.
    Last week in Luxembourg, our group participated in the 
first of four planned seminars as part of a broader process to 
collect a range of views about NATO's strategy and operations. 
We plan to provide our conclusions and recommendations to the 
Secretary General by next May. After consulting with member 
governments, the Secretary General will then draft the 
Strategic Concept for consideration at the Lisbon summit. And, 
when approved, this document will serve as a guide for the 
alliance through the coming decade.
    Mr. Chairman, I think you'd agree that the stakes involved 
in the strategic review are very high. For 60 years, NATO has 
been the world's preeminent multinational security institution, 
and, like many of you, or at least the more senior members, I 
grew up with this alliance. In fact, NATO's birth was hastened 
by the Communist takeover in 1948 of my native Czechoslovakia. 
From then until the fall of the Berlin Wall, NATO defended 
freedom in the West while preserving hope in Europe's East, and 
as a daughter of Prague living in America, I had one foot on 
each side of that divide.
    Since the end of the cold war, the alliance has remained 
open to qualified new members, it has responded to threats both 
in and outside the North Atlantic region, and it has begun 
working with others to counter global threats, including 
proliferation and terrorism. Despite this, there are some who 
have raised doubts about NATO's ongoing relevance.
    So, let me address the question directly. Does NATO still 
matter, or is it as obsolete as a Senate spittoon? The answer 
is clear. NATO was created in response to the Soviet threat, 
but not only in response to that threat; it was also designed 
to rein in the many national rivalries that had ripped Europe 
apart. And this purpose of creating a Europe whole and free did 
not disappear with the Soviet Union and has not grown obsolete 
over time. The same can be said of the core mission of 
collective defense. Under Article 4 of the North Atlantic 
Treaty, the allies, ``will consult together whenever the 
territorial integrity, political independence, or security of 
any of the parties are threatened.'' Under Article 5, the 
allies agree that, ``an armed attack against one shall be 
considered an attack against them all.''
    Now, these provisions were designed to protect the security 
of every ally against external threats, and making good on that 
commitment--in deeds, not just words--remains the heart of 
NATO's purpose. Fulfilling that objective, however, is a more 
varied task than it was. Time and technology have brought many 
benefits to the world, but also new dangers, including weapons 
of mass destruction, missiles, cyber sabotage, and violent 
extremism. Not even NATO allows us to predict all the threats, 
but NATO does give us a predictable military and political 
framework for responding to even the most surprising perils. 
And in this sense, NATO is as relevant to the security of its 
members as a fire department is to the well-being of a 
community.
    Most prominent among present dangers is that posed by al-
Qaeda and its allies. Their attacks have been felt in many 
countries. But, if there is a center to the struggle, it is in 
Afghanistan, spilling over into Pakistan's western frontier. 
NATO's mission is to promote stability by helping Afghanistan's 
security forces to protect local populations from the Taliban, 
and this effort has contributed to a stronger and more 
professional Afghan Army, but the mission has also suffered 
from divisions within the alliance and from the lack of a more 
effective government in Kabul.
    Thanks to your discussions in the past week, Mr. Chairman, 
the democratic process in Afghanistan has been strengthened, 
and the Afghan people should know that the United States and 
NATO are committed to helping them to exercise their rights 
fully, fairly, and safely.
    Yesterday, the National Democratic Institute, which I 
chair, listed some useful steps that should be taken between 
now and the November 7 election, including an effort by NATO 
and Afghan security forces to expand the area where voters can 
feel protected. I expect that the runoff election and issues 
related to it will be among the factors taken into account by 
President Obama as he continues to review U.S. strategy in 
Afghanistan.
    The opinions of our allies will be another vital factor. 
Based on my own discussions, I can say that NATO members agree 
on the right goals in Afghanistan. Our challenge now is to come 
together on behalf of the optimum means. Accordingly, it is 
essential that NATO members focus not on past difference but on 
how best to contribute to future success. As Secretary General 
Rasmussen recently declared, NATO's operation in Afghanistan is 
not America's responsibility or burden alone. It is, and will 
remain, a team effort.
    Obviously the NATO mission in Afghanistan is an important 
test for the alliance. However, NATO has known other tests and 
will inevitably face more. And that's why the experts group 
will be looking ahead both broadly and well into the future. 
Among the many other issues we will consider is NATO's 
preparedness in responding to emerging threats. We will look 
for ways to ensure that the capabilities of the alliance are 
brought into balance with its responsibilities. We will discuss 
the prospects for reforming NATO's decisionmaking process. We 
will explore NATO's relationship with the European Union, the 
U.N., and other international organizations. We will review 
ideas for helping people around the world to understand the 
alliance's actions and aspirations. And we will be examining 
NATO's future relationship with Russia.
    When I was Secretary of State, I spent many hours 
discussing NATO with my counterparts from Moscow. Our talks 
were typically cordial, but blunt. No matter how often I 
reassured my Russian friends about the alliance's intentions, 
their suspicions remained. To them, NATO's very existence 
served as an unwelcome reminder of the cold war.
    From what I've been able to observe in the past decade, 
this mindset has not changed, and this makes dialogue more 
difficult, but it does not make cooperation impossible. Russia 
and NATO have important interests in common, and these include 
support for stability in Central Asia, countering terrorism and 
piracy, and curbing the spread of weapons of mass destruction.
    Despite these shared interests, there are some in Moscow 
who would like Washington to choose between loyalty to our NATO 
allies and cooperation with Russia, as if these two options 
were mutually exclusive. In fact, the United States can and 
should combine strategic reassurance for allies and realistic 
engagement with Moscow. When I was Secretary of State, our 
policy was that, on matters of European security, Russia was 
entitled to a voice but not a veto. Both halves of that 
equation remain valid.
    Mr. Chairman and members of the committee, you know that 
the story of NATO and the United States was written, in 
significant part, by members of this committee. It was before 
this panel that Secretary of State Acheson first made the case 
for American participation, and it was here that 
administrations from both parties sought and received support 
during the difficult cold war years. It was to you that Defense 
Secretary Bill Cohen and I came in search of consent for NATO 
enlargement during the 1990s. For six decades, this committee 
has done a superb job of overseeing America's participation in 
NATO and of helping our citizens to understand why this 
alliance matters and why its future should be of concern to us 
all.
    Today's hearing is a continuation of that tradition, and I 
thank you again for the chance to participate, and I'd be very 
happy to answer whatever questions you might have.
    [The prepared statement of Ambassador Albright follows:]

 Prepared Statement of Hon. Madeleine K. Albright, Former Secretary of 
      State, Principal, Albright Stonebridge Group, Washington, DC

    Good morning Mr. Chairman and members of the committee, and thank 
you for the opportunity to be here.
    I want to begin by complimenting you, Mr. Chairman, and Senator 
Lugar, for the outstanding work you are doing with this committee and 
also for holding this hearing.
    NATO is, above all, an alliance of democracies; public discussion 
is a key attribute of democracy; and a discussion about NATO's present 
and future could not be more timely.
    Although I speak this morning only for myself, I am honored to 
serve as chair of the recently appointed Group of Experts, which will 
offer advice to NATO Secretary General Anders Fogh Rasmussen on a new 
strategic concept for the alliance.
    Last week, in Luxembourg, our group participated in the first of 
four planned seminars, as part of a broader process to collect a 
diversity of views about NATO strategy and operations. To this end, we 
listened to a number of distinguished scholars and former officials. We 
also met with NATO's military leaders.
    We plan to provide our conclusions and recommendations to the 
Secretary General by next May. In close consultation with member 
governments, the Secretary General will then draft the strategic 
concept for consideration at the Lisbon summit toward the end of the 
year. When approved, the document will serve as a guide for the 
alliance through the coming decade.
    Mr. Chairman, I think you would agree that the stakes involved in 
this strategic review are high. For 60 years, NATO has been the world's 
preeminent multinational security institution, and like many of you--or 
at least the more senior members--I grew up with the alliance.
    In fact, NATO's birth was hastened by the Communist takeover, in 
1948, of my native Czechoslovakia. From then until the fall of the 
Berlin Wall, NATO defended freedom in the West while preserving hope in 
Europe's east; as a daughter of Prague living in America, I had one 
foot on each side of that divide.
    Since the end of the cold war, the alliance has remained open to 
qualified new members; it has responded to threats both in and outside 
the North Atlantic region; and it has begun working with others to 
counter global threats, including proliferation and terrorism.
    Despite this, there are some who have raised doubts about NATO's 
ongoing relevance. So let me address that question directly: Does NATO 
still matter or is it as obsolete as a Senate spittoon?
    The answer is clear. NATO was created in response to the Soviet 
threat but not only for that purpose. It was also designed to prevent a 
repetition of Europe's past, in which the capitals of the continent 
took up arms against one another. NATO was intended to ensure that the 
many national rivalries that had torn Europe apart would finally be 
reined in so that a larger, peaceful and democratic whole could be 
created. This worthy goal did not disappear with the Soviet Union, and 
it has not grown less urgent with the passage of time. A peaceful 
Europe and a democratic trans-Atlantic community are among the valuable 
assets and accomplishments of modern civilization. NATO helped bring 
them into being and continues to preserve them. The time and treasure 
we invest in the alliance toward that end alone would be well worth the 
price.
    This fact is highlighted by France's recent decision to participate 
fully in NATO's integrated military structure, hardly a sign that the 
alliance is diminishing in function or stature. The French move shows 
that country's political commitment to the alliance and enhances 
prospects for even closer cooperation between NATO and the European 
Union (EU). This could help the organization to maintain its trans-
Atlantic balance by increasing participation on the European side; and 
it validates the conviction that I had when in office, which is that 
NATO and European defense capabilities should be seen as mutually 
reinforcing. As Gen. Jim Jones recently pointed out, a strong and 
independent Europe is good for a strong and independent alliance.
    Of course, NATO does more than maintain the unity of its members. 
It also provides for their collective defense. A critic might scoff and 
ask what exactly that term means in the world today, but that question 
can be answered. Yes, international borders are vulnerable to dangers 
that are less obvious and tangible than foreign armies, but that does 
not mean that traditional forms of aggression are necessarily a thing 
of the past. Since the end of the cold war, the world has witnessed 
numerous attempts to change national borders through the use of force--
in the Middle East, the Horn of Africa, the Balkans, the Caucasus, and 
even in South America.
    Under Article Four of the North Atlantic Treaty, the allies ``will 
consult together whenever, in the opinion of any of them, the 
territorial integrity, political independence or security of any of the 
parties are threatened.'' Under Article Five, the allies agree that 
``an armed attack against one . . . shall be considered an attack 
against them all.''
    These provisions were agreed upon to protect the security of every 
ally against external threats. Making good on that commitment--in 
deeds, not just in words--remains the heart of NATO's purpose.
    Fulfilling that purpose, however, is a more varied task now than it 
was. Time and technology have brought many benefits to the world, but 
also new dangers, including weapons of mass destruction, missiles, 
cyber sabotage, and violent extremism. Not even NATO allows us to 
predict all threats; but NATO does give us a predictable military and 
political framework for responding to even the most surprising perils. 
In this sense, NATO is as relevant to the security of its members as a 
fire department is to the well-being of a community.
    Most prominent among present dangers is that posed by al-Qaeda and 
its allies. Their attacks have been felt in many countries but if there 
is a center to the struggle, it is in Afghanistan, spilling over into 
Pakistan's western frontier. NATO's mission is to promote stability by 
helping Afghanistan's security forces to protect local populations from 
the Taliban. This effort has contributed to a stronger and more 
professional Afghan Army, but the mission has also suffered from 
divisions within the alliance and from the lack of a more effective 
government in Kabul.
    Thanks to your discussions this past week, Mr. Chairman, the 
democratic process in Afghanistan has been strengthened. The Afghan 
people should know that the United States and NATO are committed to 
helping them to exercise their rights fully, fairly, and safely. 
Yesterday, the National Democratic Institute listed some useful steps 
that should be taken between now and November 7, including an effort by 
NATO and Afghan security forces to expand the area where voters can 
feel protected.
    I expect that the runoff election and issues related to it will be 
among the factors taken into account by President Obama as he continues 
to review U.S. strategy in Afghanistan. The opinions of our allies will 
be another vital factor. Based on my own discussions, I can say that 
NATO members agree on the right goals in Afghanistan; our challenge now 
is to come together on behalf of the optimum means. Accordingly, it is 
essential that NATO members focus, not on past differences, but on how 
best to contribute to future success. As Secretary General Rasmussen 
recently declared: ``NATO's operation in Afghanistan is not America's 
responsibility or burden alone; it is and it will remain a team 
effort.''
    Mr. Chairman, NATO's current missions in Afghanistan and off the 
coast of West Africa (to counter piracy) have cast new light on an old 
debate concerning the proper scope of NATO activities. Although a 
consensus exists that missions conducted outside the transatlantic 
region are sometimes necessary to protect populations within the 
alliance, there are no formally established criteria for separating 
appropriate missions from those that are not.
    Some suggest that these external missions have opened a faultline 
within the alliance, placing on one side those who believe that NATO 
should assume the role of global police and on the other those who 
insist that NATO stay close to home. I see no such faultline but 
instead a sensible search for a reasonable balance. There are limits to 
what NATO can do and also to what it should attempt; it is a regionally 
based security alliance and cannot be all things to all people. Article 
V and collective defense remain, properly, the cornerstone of our 
alliance. However, we must also be prepared to respond in a selective 
way to threats that arise beyond alliance territory, taking into 
account the urgency of those threats, the availability of other 
security options, and the likely consequences of acting or of failing 
to act.
    To our benefit, NATO is both a leader and a partner. The alliance 
is linked to a broader network that is addressing problems of peace, 
justice, development, and humanitarian response. Accordingly, we should 
draw a distinction between what NATO must do and what others can do--
and between situations where the alliance must act on its own and where 
a team approach is preferable. NATO's new strategic concept should 
recognize that the work of the alliance will often rely on a 
comprehensive approach, involving cooperation with such organizations 
as the U.N. in all its aspects, the EU, the OSCE, the African Union, 
other regional entities, and major NGOs.
    It is vital that NATO be able to work with others; it is also 
essential that NATO be understood by others. The story of the alliance 
is a proud one, even glorious, but it has grown more complex as new 
chapters have been written. Each year, across the globe, there are 
fewer people who recall NATO's creation, fewer who remember its cold 
war resolve, and fewer who have a clear sense of why NATO's survival 
and success should matter to them. So as we think about NATO's 
strategic concept, we should bear in mind how such a document will be 
read not only within the Euro-Atlantic community but by people in every 
region. The alliance must strive to explain its policies and actions 
persuasively and in real time, making full use of modern information 
technology.
    Communication is, however, a two-way street, requiring both an 
effort to explain and a willingness to listen. When I was Secretary of 
State, I spent many hours discussing NATO's activities and plans with 
my counterparts from Russia. Our talks were typically cordial but 
blunt. No matter how often I reassured my Russian friends about the 
alliance's intentions, their suspicions remained. To them, NATO's very 
existence served as an unwelcome reminder of the cold war. From what I 
have been able to observe in the past decade, this mindset has not 
changed. This makes dialogue more difficult, but it does not make 
cooperation impossible.
    Russia and NATO have important interests in common. These include 
support for stability in Central Asia, countering terrorism and piracy, 
and curbing the spread of weapons of mass destruction.
    Despite these shared interests, there are some in Moscow who would 
like Washington to choose between loyalty to our NATO allies and 
cooperation with Russia--as if these two options were mutually 
exclusive. In fact, the United States can fully meet its obligations to 
allies without harming the legitimate interests of Russia. At the same 
time, we can seek the cooperation of the Kremlin on issues related to 
international stability without diluting our commitments within NATO. 
In fact, the United States can and should combine strategic reassurance 
for allies and realistic engagement with Moscow.
    When I was Secretary of State, our policy was that, on matters of 
European security, Russia was entitled to a voice but not a veto; both 
halves of that equation remain valid. In the interests of clarity, 
certain facts bear repeating.
    First, NATO's purposes are defensive in nature. The resources of 
the alliance are not directed at any country, and the organization does 
not consider any country to be its enemy.
    Second, the alliance neither asserts, nor recognizes, a sphere of 
influence. On the contrary, NATO is a defender of the rights of nations 
to exercise sovereignty legitimately and independently within their 
borders.
    Third, NATO governments remain open to a cooperative relationship 
with Russia, including regular consultations and, when possible, joint 
actions. Such a relationship can only mature, however, if Russia 
demonstrates a genuine willingness to engage with NATO in a 
constructive fashion.
    Fourth, when I was in government, I told Central European leaders 
that the United States would have no important diplomatic discussions 
about them without them. That policy, too, should remain our guide.
    Finally, we should reiterate that, whether or not Moscow approves, 
NATO's doors will remain open to qualified candidates. Decisions about 
membership are for the alliance alone to make. Those decisions should 
be made on the basis of objective criteria related to the contributions 
and obligations the admission of a new member entails. No country 
outside the alliance should be permitted to exert influence over these 
internal judgments. At the same time, NATO membership must not be used 
to prove a political point about the alliance's willingness to stand up 
to external pressure. NATO membership is not a status symbol or a 
bargaining chip; it is an agreement between old members and prospective 
new ones to make the alliance stronger and more effective for purposes 
that all can support.
    As NATO leaders draft a new strategic concept, they will also need 
to consider political and military reforms to ensure that the 
commitments made at next year's Lisbon summit can be implemented. Such 
reforms will be critical in light of
the limited financial and human resources that are likely to be 
available to the alliance in coming years. At this early stage in the 
work of the Group of Experts, it would be premature to pronounce on the 
specific reforms and implementation plans that should be considered. 
There can be no doubt, however, that there is room to improve the 
efficiency of NATO decisionmaking and the effectiveness of alliance 
expenditures.
    Mr. Chairman, during the cold war, NATO's main objective was to 
defend freedom from the threat of aggression by the Communist Bloc. 
Today, we understand that neither the defeat of communism nor our own 
freedom is sufficient to guarantee security. NATO must strive for a 
world in which differences are resolved without violence; where people 
are allowed to live without fear of aggression or attack; and in which 
the rule of law is legitimately constituted, broadly recognized and 
widely enforced.
    By its nature, this is an enterprise to be waged on many fronts, 
simultaneously and continuously. It will lead not to some climactic or 
universal triumph, but to the hope that our children can grow up in a 
world more peaceful, free, and humane than it has been. For that to 
happen, NATO must operate in the future with all the energy and focus 
it has shown in the past--and each member of the alliance must meet its 
obligations fully and without fail.
    Looking back, we can see that many of the threats we faced have 
vanished or shifted in shape; looking ahead, we can expect that many of 
the problems we worry about today will also wax or wane. Global and 
regional dangers must naturally command NATO's attention, but these 
impermanent perils must never define our alliance.
    In 1949, the founders of NATO came together not because they were 
afraid, but because of their faith in the values of democracy, free 
expression, and respect for the dignity of every human being. We have 
learned since that the organization must constantly adapt to the 
demands of political and technological change. But we have also learned 
what must not change. NATO's strategic concept must begin and end with 
NATO's founding ideals.
    Mr. Chairman, as you know, the story of NATO and the United States 
was written in significant part by the members of this committee. It 
was before this panel that Secretary of State Acheson first made the 
case for American participation. It was here that administrations from 
both parties sought and received support during the difficult cold war 
years. It was to you that Defense Secretary Cohen and I came in search 
of consent for NATO enlargement during the 1990s.
    For six decades, this committee has done a superb job of overseeing 
America's participation in NATO, and of helping our citizens to 
understand why this alliance matters and why its future should be a 
concern to us all.
    Today's hearing is a continuation of that tradition--and I thank 
you again for the chance to participate.

    The Chairman. Well, thank you. Thank you very much, Madam 
Secretary. We do have questions, and we'd love to explore some 
of the thoughts that you laid out, and others.
    The Strategic Concept is a vision of NATO's future of, 
``How do we construct an alliance where we have an ability to 
be able to fulfill our ambitions?'' And there's been a lot of 
struggle through the years, as you know, to try to define that 
mission, and even a heavy lift to get people to say there ought 
to be some engagement in Afghanistan. It's out of theater, 
different concept, et cetera. We're there. But it's been a very 
difficult process to assemble the means necessary to achieve 
the mission. When you make a mission, you want to achieve the 
mission, your relevance obviously is affected significantly if 
you don't, and yet the troops, the equipment, the financing 
necessary for ISAF, are all a struggle, and they remain a 
struggle. They're inadequate, in fact, today.
    As the President makes a decision about the numbers of 
troops, one of the impacting factors that hit me very hard in 
the last days is the lack of adequacy of two critical 
components of any effective counterinsurgency: governance and 
development. And those both depend significantly on a NATO 
commitment.
    How can we use the Strategic Concept to better prioritize 
our objectives and reform the structure of the alliance to get 
rid of some of this inefficiency and procrastination and 
reluctance to actually fulfill the mission?
    Ambassador Albright. Well, that is the challenge for this 
group of experts. We are looking at a variety of those issues 
through these seminars, and ultimately we'll also be looking at 
the decisionmaking process, which does seem to have accreted in 
a way that makes it difficult to make decisions. Obviously, an 
alliance discarded----
    The Chairman. ``Accreted'' is an interesting word. Can you 
fill that out a little more, maybe?
    Ambassador Albright. Well, I think that what has happened 
is, as you look at an alliance that started at 12 and is now at 
28, and it's trying to sort out how the process works, there 
seem to be more and more levels where consensus is required and 
consensus is difficult to achieve. And so, as you look at the 
charts, which I have been doing recently, in terms of how 
decisions are made, ``accreted'' is the only term that seems to 
fit. Every month, it seems that a new subcommittee is being 
created. This makes it hard to diagram exactly how decisions 
are made.
    I think the point, again, is that re-reading the Washington 
Treaty is an exercise that's worth doing. It is very elegant, 
and it is quite short. And there are articles within it that I 
think can be expanded on in some way, especially in response to 
the question you just asked. Article 2 has something to do with 
looking at development and looking at other aspects of what 
NATO could in fact do. I just put that on the table.
    I also think that we know more and more that civilian and 
military activities go together. You mentioned in your opening 
statement, Mr. Chairman, that we should understand that the 
NATO allies are, in fact, contributing more than is sometimes 
evident in our press reporting on it. I think they could 
perhaps do more not just militarily, but also in helping on the 
civilian aspects of the mission. But I do think we need to keep 
in mind that there are 43 countries on the ground in 
Afghanistan.
    The Chairman. Well, let me ask about that. Does the NATO 
decisionmaking process--and I appreciate you may not agree 
completely with the premise of this question, but--to some 
degree, to some people, there seemed like a fair acceleration 
of the pace to try to reach out to expand NATO, largely because 
for so many years it was the focus of the balance of power 
against the Soviet Union. And today, Russians are still 
sensitive to that fundamental premise upon which it was based. 
And we've seen that with the counterpressure and thoughts about 
spheres of influence and so forth. My question is, Does the 
decisionmaking have to refocus more effectively on these other 
kinds of threats somehow making Article 5 and 4 less the center 
of its purpose today, I guess is the way to phrase it?
    Ambassador Albright. Well, the threats are clearly 
different. I mean, when you think about an alliance that was 
established against the threat of the Soviet Union crossing the 
frontiers with tanks and foot soldiers, it is very different 
from what is going on now. In our discussions in Luxembourg, we 
talked a lot about protecting populations, not just territory, 
and about the danger posed by cyber attacks and, as Senator 
Lugar pointed out, energy security is also an issue. Another 
question is, What does ``armed attack'' mean? And so, those are 
the kinds of questions that we are going to be exploring.
    The Chairman. Are there thoughts about actually changing--
making recommendations with respect to amendments to the 
charter, et cetera?
    Ambassador Albright. The truth is I can't answer that yet. 
I don't know. In some of the discussions last week people did 
talk about Article 5, and what it means under current 
conditions, while reiterating that it's central to the 
alliance. I think everybody understood that.
    People are also looking at Article 4, which provides for 
consultation in circumstances that go beyond just dealing with 
an armed attack. So the question that you asked is totally 
central to what we're going to be looking at, and all I can do 
at this point is tell you that these are questions that need to 
have public exposure. We are an alliance of democracies, which 
means that there has to be public support. And so, having open 
discussions about what this all means, I think, is crucial to 
the whole process.
    The Chairman. Well, I couldn't agree with you more. And you 
are absolutely correct at how elegant and straightforward the 
treaty is. I'm holding it here, I'm looking at Article 4. One 
sentence. I think the same is true of Article 3. I mean, you 
run through it----
    Ambassador Albright. Yes.
    The Chairman [continuing]. It's very simple, very 
straightforward.
    But, I have one last question pertaining to the relevance 
of today and the simplicity of that elegant treaty then. Given 
the recognition that Afghanistan's struggle cannot be won 
solely by military force, of which we are all convinced--
generals and civilians alike--it's even more important than 
ever that the international community prepare and execute a 
coordinated civilian and governance assistance program. So far, 
the coordination has been, for better or worse, just absent; 
lacking. And so have the civilian resources. And that hit me 
full square in this trip, in the last days, as we think about 
what we can achieve on the ground in this country--where I 
think there are great possibilities to achieve things, 
incidentally. I don't want to suggest there isn't the framework 
within which we can't. We can.
    But so far, it's just a mishmash. Countries are operating 
independently in their spheres of influence. UNAMA has not 
stepped up to provide the type of international coordination 
that's required. That type of mandate is outside of NATO's 
mission. So, the default position seems to be to allow the U.S. 
military to run the entire show, which winds up, in my 
judgment, not only sending the wrong message to Afghans about 
our motives, but actually undermines the very core of the 
mission itself.
    So, I wonder if you think there's a way to quickly shape up 
NATO with respect to this, and even allies who aren't part of 
NATO, who have an interest in the stability of this region.
    Ambassador Albright. Well, first of all, I fully agree with 
you about the lack of organized assistance or functioning, 
here. And I think that part of what has happened is that the 
way things evolved over the last 8 years in terms of the 
military really taking over a large number of functions, 
frankly because some of our own civilian activities were not 
being fulfilled. There are also an awful lot of nongovernmental 
organizations that are operating on their own, and the United 
Nations, too.
    There are ways that NATO can help on this, especially in 
the more civil civilian aspect and on governance issues. Such 
an initiative might also help the various NATO members to feel 
that they are contributing in a more meaningful way to what is 
a joint effort. But, the organizational aspect of this is not 
easy and that is part of the problem with the decisionmaking 
process that I think we have to look at.
    I find the new Secretary General has been very forward-
leaning on this, and has, in fact, indicated the importance of 
Afghanistan in this larger framework as something that is the 
role of NATO, and my sense is that he will push on these 
things. And we will, obviously, look at it also.
    The Chairman. Thank you, Madam Secretary.
    Senator Lugar.
    Senator Lugar. I'm curious about your thoughts on the 
problems that governments in Europe have in either making 
available to their publics word about NATO, news about NATO, 
reasons for the importance of NATO, because I am under the 
impression that the general publics in several countries do not 
have either a great interest in this subject or are worried 
about obligations that may come, that have not been fully 
explained by their governments. Now, this seems to me to be 
especially the case with many countries in Eastern Europe. I 
don't want to suggest a division in which Germany and France 
and maybe Italy and Spain are in one camp and those countries--
Poland, Hungary, Latvia, Lithuania, what have you--are in 
another; but, nonetheless, when I visited NATO headquarters, 
the EU--and two of our witnesses today, General Craddock and 
Kurt Volker, were extremely helpful, in my understanding, about 
a year ago--it was apparent to me that the Article 5 issue 
arose very frequently and with regard to those that were close 
to Russia. And they were not really clear exactly who would 
come, physically, they would ask you as an American, ``Would 
you come?'' And so, I think this is a critical situation.
    Now, it's not entirely a function of energy. I've suggested 
this is an important point. Maybe it's just sheer proximity. 
Maybe it's history or ethnic groups within countries. But, 
addressing the energy question for a moment, I was impressed, 
at the summit in Ankara on the Nabucco signing, that two of the 
large German energy companies are, in fact, stockholders and 
very much involved with Gazprom. Another, RWE, is not. And I've 
been impressed, subsequently, to see Joschka Fischer, here in 
Washington, talking about RWE. Now, if Gerhard Schroeder was 
here, he might be talking about something else. So, even within 
Germany, an interesting division as to what ought to be the 
future of energy and its relationship to other countries has 
arisen.
    Now, I expressed the thought, in my opening statement, that 
when I raised this at the Riga summit in 2006, the response was 
very--not necessarily covert, but rather guarded. Foreign 
Ministers saw me in the hallway afterward and they said, ``This 
is very important. But, this is so existential, we don't talk 
about it publicly. This is something our country tries to deal 
with, the energy problem behind the barn, so to speak.'' Now, 
it's in front of the barn now, and we really are beginning to 
meet it.
    But, I raised this question in this complex way. Now, 
energy is very important to the publics of all the NATO 
countries--the security of jobs, heating of homes in the 
winter, all the rest of it. It is an existential question. Now, 
is it possible that--not that NATO needs a resurgence per se as 
the strategic group meets, tries to think through the future of 
this, there can be more concentration on--if not energy 
independence, energy dependence on NATO. Or the question of 
whether we would come to the rescue, that there is real 
relevance--even in the face of the fact that there might be al-
Qaeda terrorists from time to time in European capitals or 
subways or what have you--but that thinking for most citizens 
and their industries comes down, right now, to the energy 
equation. I'd like some further discussion, as you've thought 
about this, and you've touched upon it a little bit in your 
opening remarks. This has come to the fore, perhaps, in some of 
your discussions.
    Ambassador Albright. Well, first of all, what we did in 
Luxembourg was kind of lay out the subjects that we would be 
talking about, and clearly energy is among those. There are 
different views, as you can well imagine.
    On the issue, generally, of communications--and I'll return 
to energy in a minute--as the Secretary General, as well as 
other people that I've talked to there, are bound and 
determined to have a different approach on communications. Part 
of what they're looking at is a new way of doing strategic 
communications and getting things up on a Web site. Everyone 
understands that this is going nowhere if, in fact, there is 
not an awful lot more done in terms of communication with the 
public.
    In our work plan, we are using this first several months as 
kind of a reflection period, where we're bringing all the 
issues in, and then we're going to go around as experts on 
consultations to all the NATO capitals and we even will have 
meetings outside of the NATO family.
    The energy issue, I think, is absolutely key, and because 
nothing in life is simple, it also involves what's going on in 
Turkey. I recently created a group of former Foreign Ministers 
and we met to talk about Turkey, and we had all these 
unbelievable maps of the pipelines that have to go in, around, 
and through Turkey, how one competes with another. This whole 
issue of the pipelines and who controls what is, I think, one 
of the major issues of the 21st century. It's something that we 
will be talking about in some detail.
    An additional component that we're looking at is the effect 
of global warming in the Arctic. One of our subjects for 
discussion is the High North and the issue of oil tankers and 
other vessels transiting Arctic waters.
    Senator, I read your speech to the Atlantic Council. I 
fully agree with the way that you're framing the issue. Getting 
others to see the whole instead of just the component parts is 
what we're going to be working on. But I think it is a big 
issue and one that does appeal to public understanding.
    Senator Lugar [presiding]. Well, thank you very much.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Madam Secretary, it's a----
    Ambassador Albright. Senator, good to see you.
    Senator Cardin [continuing]. Pleasure to have you back 
before the committee. It's nice to see you.
    NATO has taken on a different meaning and a different role, 
and I just want to engage you a little bit as to what impact 
this is having on the recommendations that you are going to 
make. We look at countries today that view membership in NATO 
as graduating, as showing the nations in transition and 
innovation in Europe.
    I think of Bosnia-Herzegovina today and recognize that 14 
years ago it was involved in a war. Genocide was occurring, and 
hundreds of thousands lost their lives. And now, Bosnia's 
future is uncertain today. We have made progress. Most of the 
people you talk to about what's happening in Bosnia-Herzegovina 
say that the prospect of joining NATO is one of the unifying 
factors, that it has the country focused on what it needs to do 
with constitutional reform. So, I would just like to get your 
observations as to how important NATO expansion is to the 
United States goal of stability in Europe, and whether that's a 
factor as you look at when considering NATO in the future.
    For example, concerning membership application action 
plans, there is a question as to whether we should pursue one 
with Bosnia at this point or whether constitutional reform 
progress must be made in advance of an application.
    I guess I look at NATO today--I think we all do--as an 
extremely valuable institution, not just for its military 
presence and capacity, but also as an institution that shows 
that nations have something to look forward to and as an 
incentive to further progress in the region.
    Ambassador Albright. First of all, let me just restate that 
I am here only in my personal capacity, and not as chair of 
this group. We don't have any conclusions on anything like this 
yet.
    It's interesting, Senator, I've been through this from the 
very beginning, because when we began the process of enlarging 
NATO in the middle 1990s, and I was the Ambassador to the 
United Nations, I went around with General Shalikashvili, who 
was Chairman of the Joint Chiefs at the time, in order to lay 
out what the paths were. This is when we developed the 
Partnership for Peace and began to emphasize that NATO was not 
just some kind of a do-goody organization; there were 
responsibilities that came with it, privileges and 
responsibilities.
    And that--it was not an easy pass, and the Partnership for 
Peace was really a way to get people to make sure that there 
was civilian control over the military, that there were a 
series of governance aspects to it. That was something we 
looked into as we enlarged NATO in the first go-around. I think 
that there is a magnet approach, in terms of the hope of 
getting into NATO that does make people and the countries adapt 
their behavior in a positive way.
    And so what has happened in the intervening years is that 
more steps have been established--the membership action plan 
and individual national plans. So, I do think that the hope of 
coming into NATO is something that is a very good either 
catalyst or magnet that does serve a purpose, and that NATO is 
not just a military alliance. It also creates political space, 
and it does allow for movement in the right direction whether 
it's in Bosnia or elsewhere.
    But membership in NATO is not a gift. It is a 
responsibility. And therefore those standards are very 
important. And I like the approach that it takes a while to get 
in, but that there is a goal at the end.
    Senator Cardin. Well, I agree with you, and particularly as 
it relates to Bosnia. There are some disturbing trends right 
now in that country. The one unifying factor that gives us hope 
for constitutional reform is that all sectors are convinced 
that NATO membership would be in Bosnia's interest----
    Ambassador Albright. Right.
    Senator Cardin [continuing]. Which gives up hope that we 
won't slide back to the ethnic fighting that took place just a 
few years ago.
    I think, as we look at NATO in the future, it is a 
different organization when it has 28 members and more that are 
likely to be joining. We need to figure out a way in which it 
strengthens not just the reforms that take place--the 
responsibilities that nations undertake to become members--but 
also a continuing responsibility as members in NATO.
    Ambassador Albright. I think--if I might add to one of the 
issues here--one requirement in the acceptance process is that 
a country, whether Bosnia or any other, should not have any 
internal fights. Therefore, an incentive is created to settle 
ethnic conflict as when Romania came into NATO. And that is 
another one of the attractive aspects of the magnet part of 
this.
    Senator Cardin. Of course, in Bosnia one of the major 
concerns NATO has is whether there is a functioning government 
control of the military, rather than having it subject to local 
vetoes. But, that's true really as a government, that you need 
to have a national government that can function and protect the 
rights of the nation.
    So, you know, I just think that this is an important 
function as we look forward to NATO in the future. And I thank 
you for the work that you're doing.
    Ambassador Albright. Thank you, Senator.
    The Chairman [presiding]. Thank you very much, Senator.
    Senator Corker.
    Senator Corker. Well, thank you, Mr. Chairman.
    I had the opportunity to say a word to you, back before we 
came out, and sometimes preparation and opportunity sort of 
meet each other, and I just want to say in public that, as it 
relates to what you've done over the last week, I am proud of 
you and proud for you, and actually thought, when you stepped 
into the room there might be a standing ovation. But, anyway 
thank you for that.
    I also want to thank you for having this hearing. I know 
that this is result of a business meeting we had regarding the 
support of additional countries coming into NATO. I thank you 
for that, and Ranking Member Lugar.
    And with that, Madam, thank you for your tremendous service 
to our country, Ms. Secretary. I appreciate the long history 
you have with NATO, and your understandings, that many of us 
don't have, because of that.
    I guess one of the--I'm a NATO supporter, but I do realize 
that NATO is evolving right now. And I guess one of the issues 
that I have, it appears to me that NATO is being divided 
between security providers and security consumers. Only 5 of 
the 28 countries that exist in NATO actually are living up to 2 
percent of their GDP being utilized to support defense 
mechanisms. So, what's really happening is, we have countries 
coming in to NATO. It almost appears, in some cases, we do that 
in a willy-nilly way. And we're providing the security, it 
seems. We're expending the American citizens' dollars to make 
sure that NATO is protected, and certainly our lives--our 
military men and women's lives--and yet, we have most of NATO 
being security consumers. That, to me, is troubling, and I 
wonder if you might comment on that.
    Ambassador Albright. Well, I think that it is a very large 
alliance now, with different capabilities, but I think that if 
one looks at what the various countries are providing, many of 
them are, in fact, providing above what one would expect. I 
won't go through the list with you. I do think that there is 
the issue--and we are going to be looking at this--of whether 
providing 2 percent of GNP to defense is the right way to 
measure support for the alliance. Perhaps there are ways to 
supplement defense contributions with efforts that are more in 
the civilian line.
    I think those are the kinds of questions that we have to 
ask. I do not think that anybody should be a free rider in this 
alliance.
    Senator Corker. But they are.
    Ambassador Albright. Well, I think those are exactly the 
kinds of things that we are going to be looking at.
    Senator Corker. Well, should we be adding new members that 
we know are going to be free riders, or should we change the 
way we look at this? And when people come in, they know that 
they have responsibilities not to be free riders.
    Ambassador Albright. Well, I believe yes. I think that one 
has to make--that's what I was saying to Senator Cardin is that 
basically there has to be a set of standards that are met. 
Membership in NATO is not a gift; it is a responsibility. On 
the other hand, I think that we do need to understand the 
extent to which the prospect of NATO membership can help to 
generate changes that we want to see in particular places.
    I have to say, you know, that one of the reasons we spent 
so much time on the Balkans is that it was the missing piece of 
the puzzle in a Europe that we wanted to become whole and free. 
And a lot of what we did by having a NATO mission in Kosovo and 
in Bosnia was to pull this all together, not because we were 
just thinking about the goodness of Europe, but because it is 
in the United States national interest.
    Senator Corker. And I want to be clear, I agree with that. 
I really do. And I thank you for making that point. But, I am 
concerned about this huge disparity in security providers and 
security consumers.
    I was in Georgia, about a week, right after the bombings. I 
went up to Gori. And I very much like President Saakashvili. I 
very much appreciated the Prime Minister that was in charge at 
that time. And some of the folks I met were in my office just 
yesterday. I have to tell you, when I realized that President 
Saakashvili, who I respect, and certainly appreciate what's 
happening in Georgia right now--when I realized that he had--
if, for lack of a better word, had ``taken the bait''--OK--with 
Georgia coming down--I mean with Russia coming down from where 
it was, that under Article 5, had they been in NATO at that 
time, I suppose there would have been some United States 
response to the fact that Russia came into part of their 
sovereign territory. And I just wondered if issues like that, 
in some of these more fledgling countries, caused you concern 
as it relates to Article 5.
    Ambassador Albright. Well, I think this is why we are 
looking at how Article 5 relates today; what does it mean, with 
so many more countries? But Article 5 is the central aspect of 
NATO, and these are the questions that the group is asking 
itself.
    There was a declaration at the Bucharest summit, that 
Georgia and Ukraine would ultimately become members, but they 
have to meet a set of standards to get there.
    We have all signed onto the territorial integrity of 
Georgia, but, there has to be a way that some of the issues 
related to the internal problems of Georgia are properly 
resolved.
    But that is the question. That is absolutely the question.
    Senator Corker. And it seems like it's an important 
question. It seems like, as we continue to look at new nations 
coming in, new countries coming in, it's important.
    This is my last question. I wasn't going to talk about 
Afghanistan, but I noticed you brought it up in your testimony, 
and I'm, I think, one of the few Republicans that has actually 
said that I think it's perfectly legitimate for President Obama 
to take some time to analyze where we are. I think taking too 
much time becomes a little Shakespearean, but you know, taking 
a little time looking at the situation, I certainly appreciate 
what Senator Kerry has done, as I mentioned.
    What I haven't found particularly interesting is--I know, 
in February or March, when the President announced his new 
strategy, everybody talked about it being a narrowed mission. I 
knew immediately that it was nation-building. And if you look 
at the matrix by which we've been measuring progress in 
Afghanistan, it is nation-building. And I notice you or Senator 
Kerry, one, mentioned governance and development being part of 
the NATO mission, civilian and military activities. I don't 
know which said which. But, much of that leads to, in essence, 
what we now are embarked on in Afghanistan, which is nation-
building.
    And I just--you mentioned that the NATO allies were allied 
in their goals in Afghanistan. I'm not trivializing the 
problems that we have there, but that's never been articulated 
in a way that I can understand it. And since NATO is allied in 
what those goals are, I'd love for you to share with me what 
that is, and if you do
see what we're doing in Afghanistan today as being nation-
building.
    Ambassador Albright. Well, first of all, I apologize in 
saying this, but nation-building has gotten to sound like a 
four letter word. The term is thought by some to have all kinds 
of implications, which I don't fully understand, because it 
seems like it is being portrayed as the worst thing you could 
possibly do.
    I think that what has to happen in Afghanistan----
    Senator Corker. You have to do that in counterinsurgency, 
right?
    Ambassador Albright. Well, I think, partially, what we're 
trying to do is stop Afghanistan from being a place that 
provides a safe haven for al-Qaeda. After all, this is where 
the 9/11 people came from.
    I think it is very important that Afghanistan not be such a 
haven. Now, what does that really mean?
    Some of it does have a political context in terms of having 
a form of governance that the people can trust enough so that 
they don't find themselves harassed or terrified by the 
Taliban.
    I think that one of the things that Chairman Kerry really 
did was to explain and make clear that there has to be some 
political context to it.
    We're not trying to create a ``perfect country'' over 
there, but this is a society that was able to govern itself for 
some time. What we have to do is try to figure out a way that 
the political powers over there are not corrupt, the people are 
not terrified, and governance procedures are improved.
    So even though people hate the term ``nation building.'' I 
do think that the military and the civilian aspect of this go 
together.
    Senator Corker. Thank you very much.
    Ambassador Albright. Thank you.
    The Chairman. Good questions. Thank you.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And I'd like to add my congratulations to you, and to echo 
what Senator Corker said, for all the energy that you have put 
into attempting to bring a proper resolution to this situation 
over the past couple of weeks.
    And also would like to express my appreciation for the 
decision to hold this hearing. I was one, along with Senator 
Corker, who had suggested this during the business meeting that 
we had. I think it's vitally important for us to have a good 
hold on what this relationship really is with NATO.
    And, Madam Secretary, I appreciate very much your 
testifying today. I've been watching a good bit of this hearing 
from my office.
    My major concern with respect to NATO is along the lines, a 
little bit, of what Senator Corker said at the beginning of his 
comments. I raised this issue in the Armed Services Committee 
last year and in this committee. We seem to have progressed 
from an alliance to a sort of a three-part entity in NATO, much 
more divided than it ever was when I was in the Pentagon 25 
years ago, for instance, which I spent a lot of time in NATO. 
We have the United States now, as a--sort of, the principal 
military guarantor. The United States has always been more 
involved militarily than the other countries, as you know, from 
1949 forward, when Eisenhower as SACEUR called for six 
divisions to be sent to Europe. When I was Assistant Secretary 
of Defense I did a lot of work for Cap Weinberger in NATO. At 
that time, we had 206,000-216,000 Army soldiers alone in 
Germany--United States Army soldiers alone in Germany, and not 
including family members--which was about 60,000 more soldiers 
than the U.K. had in their entire army worldwide. There were a 
lot of discussions then about the United States, and the 
imbalance between the United States and others. But, that seems 
to me to have been accentuated in the period following the fall 
of the Berlin Wall.
    And we have a situation now where the United States remains 
the major military guarantor. Many of the other countries in 
the old alliance are repairing their relationships in Eastern 
Europe, their historical relationships in Eastern Europe, as 
well they should. And we've been bringing in these other 
countries that--you can put a label on them, you can call them 
an ally, but in reality they're protectorates.
    So, the question really, for me--and I would appreciate 
hearing your thoughts on this--is, When we are obligating 
ourselves to come to the defense of countries that really are 
contributing very, very little in terms of their own military 
capabilities, which is the foundation of what you would call an 
alliance--where are we on this? This is more like a 
commonwealth than an alliance at this point. Or, what would 
your thoughts be?
    Ambassador Albright. Well, first of all, I would not call 
the new members protectorates. We could talk about that. But, I 
think that it is clearly different; there's no question.
    An alliance that was set up for one purpose has been 
reconfigured to do something else. I do think that the 
political aspect of it is important in terms of what it does to 
create an area where democracy and a variety of rule-of-law 
issues are taking hold--albeit slowly, but they are.
    And I think that--and again, I welcome your question so 
that I can make something very clear; I have always been a 
supporter of NATO, for a variety of reasons.
    But I took this assignment on for a very different reason, 
which is that I think it does need to be examined. That's the 
whole point of this Strategic Concept. I don't want to be a 
part of producing or delivering a set of information that is 
just kind of regurgitating all the various things that we've 
been saying for the last 60 years.
    And so, I am taking this on in terms of looking at exactly 
the kind of questions that you and Senator Corker are asking, 
and others are asking, ``What is this about?'' And I think part 
of it is about keeping a linkage between the United States and 
North America with Europe. I think that despite whatever issues 
are out there, that continues to be a really important part.
    I find the trip that Vice President Biden is on right now 
to be significant in terms of the things that he was saying in 
Warsaw and Romania; he's on his way to the Czech Republic. He 
is contributing to the sense of reassurance and trust that we 
need in a community of countries that I think can, in fact, be 
counted on for a variety of issues.
    But I want to look into exactly what you were all talking 
about. And what I hope is that I can come and visit with you 
more often through this process, because this does have to have 
the support of the American people.
    The Europeans have to get support from their people and we 
have to have these discussions and not just kind of say that we 
should continue on just because we've always done it this way.
    But I would not call them protectorates. I think that they, 
in many ways, are trying to figure out ways to be contributing 
members. We may not be asking enough of them. As we move ahead, 
we will be looking at the importance of a match between the 
problems we face and the capabilities that allies have. Finding 
the right match is what this is about.
    Senator Webb. Well, I appreciate that response. First of 
all, I personally would still say, in classic military terms, 
they're protectorates. They're not really offering military 
capabilities to the strategic situation of the United States. 
But, setting that aside, it's very interesting to hear your 
comment, because as you know, I spent 4 years in the Reagan 
administration in--under Cap Weinberger, and then as Secretary 
of the Navy--and what you just said was very much in line with 
what his mantra was, even 25 years ago. And I think Cap 
Weinberger's actually a very underrated Secretary of Defense, 
in terms of history, when we look back at him. And the concept 
that he continued to push, when there were many questions then 
about the imbalance of the relationships, was that NATO was the 
vital link between the United States and the countries of 
Europe, for reasons beyond simply the military portion of it. 
And I wouldn't disagree with that.
    But, I do have a lot of concern, when we start talking 
about expanding the number of countries and, as a result, even 
more than the issue of provoking Russia, mandatorily involving 
us in certain situations because of the nature of the treaty. 
I'm very happy to hear that you would want to come over and 
discuss this further, and I would look forward to that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Webb. You raise 
very important and yet unresolved questions. But, you're going 
to resolve them, right, Madam Secretary?
    Ambassador Albright. I will certainly push.
    The Chairman. Senator DeMint. You're up. Timely arrival.
    Senator DeMint. Thank you, Mr. Chairman. I apologize for 
being late.
    Thank you, Madam Secretary, and I apologize if I'm asking a 
question that has already been discussed, but I'm particularly 
interested in the role of Russia in NATO, and the rumors of 
NATO going to Moscow to get their cues from Russia. And I know 
that's not true, but I would just like to hear you talk a 
little bit about the impact of Russia and their goals, versus 
NATO, how that affects the strategic plan.
    Ambassador Albright. I mention in my testimony, Senator, 
that Russia could have a voice about what issues were going on 
in Europe, but never a veto. I think that the reality is that 
this alliance was set up to be against the Soviet Union, and 
the Soviet Union is gone. I had the rather interesting time, in 
the 1990s, when we were enlarging NATO, of going to Moscow any 
number of times and telling them that NATO was not against 
them, and they still have very much that mindset.
    But Russia and its relationship to Europe is complicated--
and Senator Lugar was talking about the whole energy issue. The 
bottom line is that we need to reassure our allies and at the 
same time have some kind of a realistic relationship with 
Russia.
    Russia is not a member of NATO. There is a forum for 
developing a relationship between Russia and NATO, the Russia-
NATO Council, where subjects are discussed--which is where the 
voice comes in--but they cannot veto anything that NATO 
decides.
    And so I don't think anybody's going to Moscow to get 
instructions. I think that, at some stage, our group of experts 
will have some consultations with the Russians, as we are going 
to with other countries and with various organizations.
    But it is a very--it's an interesting mindset, when you 
look at an organization that was set up against something and 
then has to deal with a very different situation.
    Senator DeMint. Right.
    Ambassador Albright. And I did have a discussion with 
President Yeltsin at the time and he said, ``Why are you doing 
this? This is a new Russia.'' And I said, ``Well, this is a new 
NATO. It is not against you.''
    And so, I think it is important to realize the presence of 
Russia. Moscow still does things that make some of its 
neighbors uncomfortable in terms of spheres of interest. And 
yet there are other aspects of their policies in which we can 
and should cooperate. And here I have in mind such issues as 
nuclear nonproliferation, the environment, drug smuggling, and 
some others.
    Senator DeMint. Without the motivational glue that came 
from the threat of the Soviet Union, the sense of urgency to 
create NATO and to maintain it, do you sense, in your meetings 
and developing a strategic plan, that that sense of urgency to 
maintain a strong and united NATO still exits?
    Ambassador Albright. We just had a seminar in Luxembourg, 
with a lot of different people--experts, military people. And I 
think that there is a sense that it is essential to figure out 
what the alliance is about. The new Secretary General sees a 
very strong role for NATO. He has laid out that it's important 
to do the right thing in Afghanistan, develop some kind of a 
more functional relationship with Russia, and take on the 
assignment of developing a new Strategic Concept.
    I do think there is the sense that the 1999 concept doesn't 
work anymore. The word I kept hearing over and over again last 
week in Luxembourg was that we are living in a completely 
unpredictable time. And so, what people want to do is create 
some predictability in the form of what has been, and can 
continue to be, a major military alliance.
    This is why I welcomed this assignment, because I thought 
that it really does allow for a discussion on exactly the kinds 
of questions that you all are asking. And with the prejudice 
that this is an alliance that has been the greatest military 
alliance in the history of the world, so it has something going 
for it, but that we really do have to look at it and ask 
ourselves very honest questions.
    I personally do believe we gain a lot out of the NATO 
alliance. But in the course of this discussion we are asking 
these questions.
    Senator DeMint. When I was in Brussels last year, we met 
with a number of European ambassadors. They tried to stress 
that, without strong U.S. leadership, NATO would not continue. 
The concern, obviously, the Europeans developing their own 
strategic forces could further dilute a NATO that maybe doesn't 
have the same sense of urgency to exist that we did several 
decades ago. Again, as you go through this, do you feel like 
that the United States will play a parity role, a strong 
leadership role, a--what are the other NATO partners asking of 
us as part of this new strategic vision?
    Ambassador Albright. I think that they are obviously 
prepared to contribute their share. I'm having trouble 
answering this, because I believe in American leadership. And I 
think that we would not want it in a way where NATO--where we 
don't have a crucial role in NATO, and where we are the ones 
that are in charge of the command structure--this goes to 
Senator Webb's point.
    And I think that we have to be careful, in terms of saying 
how to broaden the sense of responsibility, but, I believe in 
American leadership. And so, I would want to see that we 
continue to really have that.
    Now, on the EU structure, I think there are ways. We're 
going to be meeting with the EU and trying to find ways where 
EU forces and NATO can cooperate.
    Senator DeMint. Well, as you know, NATO has been one of the 
most important stabilizing forces in the world, and it--I 
believe that we need to continue it as a strong organization 
with American leadership. I very much appreciate your 
leadership and your service here.
    Mr. Chairman, I've got a full statement I'd like to submit 
for the record, and I'll yield back----
    The Chairman. Without objection, it'll be placed in the 
record.
    Thank you, Senator DeMint.
    [The prepared statement of Senator DeMint follows:]

Prepared Statement of Hon. Jim DeMint, U.S. Senator From South Carolina

    Thank you Mr. Chairman, Ranking Member Lugar, for holding this 
hearing today. Security and stability remain vital issues in the 
Transatlantic relationship and arguably this relationship sets a 
standard for the rest of the world.
    For more than 60 years NATO has flourished because it has defended 
the ideals of freedom, democracy, and stability not just for members of 
the alliance but for all of Europe and indeed the world. Whether 
contributing to peacekeeping missions in Bosnia or on patrol in 
Afghanistan, NATO has been a leading contributor toward peace in the 
face of incredible challenges to global security.
    While NATO has much to celebrate from its storied past, we have 
constantly heard the refrain that now is ``the'' decisive moment for 
NATO. In the 20th century, NATO was created to counterbalance the 
growing influence of the Soviet Union, but since its collapse NATO has 
moved on. In the 21st century, some traditional threats still linger, 
but NATO has new threats to consider and confront. NATO at times has 
been slow to adapt to these emerging challenges.
    For these reasons and many more, NATO's efforts to write a new 
Strategic Concept are helpful. The current Strategic Concept was 
written before September 11, Afghanistan, cyber warfare, energy 
manipulation, and Iran's ballistic missile threat.
               strategy drives requirements and resources
    A new strategic concept should create a framework to resolve these 
important issues, but it should also provide a way for NATO's partners 
to focus their effort in important areas like planning, procurement, 
and training.
    A focused NATO with an overarching vision of its purpose and 
mission in the world provides the necessary context to influence major 
decisions regarding defense procurement. Imagine the impact a strategic 
concept could have played in the September announcement of abandoning 
ground-based interceptors in Europe. In the vacuum of a clear vision 
for the organization, the GBI system became a victim and the alliance 
is now left with a less capable, more expensive, and unproven system.
    Further, NATO forces participating on the front lines of the battle 
against terrorism were trained for a conventional fight against Soviet 
tanks in the Fulda Gap. But the last 15 years have seen NATO forces 
conduct peacekeeping, humanitarian, and counterinsurgency missions. Few 
could predict that global conditions would dictate major operations in 
the Balkans, let alone in Afghanistan, but ``out of area'' operations 
will likely become more necessary to maintain stability in Europe.
    To construct a proper strategy, NATO must not only understand the 
heritage and purpose of the alliance from 60 years ago and its most 
recent past, they must recognize today's context and more importantly 
the emerging challenges of the next 60 years.
                          emerging challenges
    These challenges are both internal as well as external. NATO must 
transform itself and improve its processes. In a resource constrained 
environment this is vitally important. But removing duplication is also 
an external issue.
    NATO must remain the preeminent security structure in Europe, and I 
fear the duplication that can come from the European Union's Security 
and Defense Policy. Parallel planning and operations structures 
duplicate effort. And if this and other organizations simply mean more 
demands on the same limited amount of resources and people, then no 
organization will be effective. Efforts to combat piracy off the Horn 
of Africa this past summer highlighted many of these problems.
    The list of external security challenges have been widely discussed 
and are well known, but my bigger concern with a new Strategic Concept 
is that it have sufficient flexibility for the alliance to respond to 
threats and challenges that no one can envision today, but may emerge 
in 5 years.
                              the alliance
    That is why the Strategic Concept must address the development of a 
range of capabilities. Things like crisis management, stabilization and 
reconstruction operations, missile defense, counterterrorism, cyber 
security, energy security, and antipiracy operations are just a few of 
the skills sets NATO people must be able to perform and more 
importantly be able to scale the size of the situation.
    At the same time, the Strategic Concept must address the question 
some members are asking: ``is NATO an alliance of equals or a two-tier 
alliance where some nations shoulder more than their fair share of the 
risks and burdens?'' While the spectrum of NATO's members' resources 
and contributions will never allow a small country to match U.S. 
contributions many countries do fight above their weight. U.S. policy 
has always insisted that NATO is a single alliance, and the new 
strategic concept should maintain this.
    And this brings us to the bigger question of enlargement. Some 
argue that NATO is too large, consensus is too difficult to reach, and 
new members are a drag on the alliance. That is an easy view to express 
from inside the alliance. However, tell that to any country that has 
experienced a cyber attack, an invasion, or energy disruptions in the 
cold of winter purely for political reasons.
    Every nation--including the United States--joined NATO because it 
faces security threats, and believed that working together provided 
more strength than standing alone. Any country that is dedicated to 
support and defend the principles set forth 60 years ago should be 
eligible for membership as long as they meet the criteria established 
by the alliance for all members.
                                 russia
    I do have deep concerns about the role of Russia inside the 
alliance, especially in drafting a new Strategic Concept. The NATO-
Russia Council is a useful mechanism for dialogue and finding areas of 
cooperation, such as supply lines and overflights to support operations 
in Afghanistan.
    However, Russia is not a member of NATO and they should have no 
role helping draft a new Strategic Concept. These is especially true 
because until there is some level of consensus on Russia inside the 
alliance, finding common ground on some of the most difficult issues 
for NATO will likely prove elusive.
                               conclusion
    Nonetheless, NATO has endured because it has been successful, and 
the United States is the beneficiary of the alliance's Article 5 
commitments. Still to some in America, NATO's processes can be 
frustrating and time-consuming, and things like caveats and decreasing 
defense budgets lead some to question European commitments to the 
alliance.
    However, in an uncertain world with a growing number of security 
challenges, NATO has proven to be one of the only security alliances 
that has actually worked. And it's relevance to global security can 
only increase.
    I support moving forward with NATO strategic concept and I look 
forward to hearing your testimony on this important issue.

    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And let me add my 
congratulations and thanks for your work in Afghanistan.
    Madam Secretary, we're delighted to have you here this 
morning. And I very much appreciate your pointing out the 
history that this committee has had with NATO over the years.
    I also have a statement that I'd like to submit for the 
record, Mr. Chairman.
    The Chairman. Without objection, it'll be placed in the 
record.
    [The prepared statement of Senator Shaheen follows:]

               Prepared Statement of Hon. Jeanne Shaheen,
                    U.S. Senator From New Hampshire

    I want to thank Chairman Kerry and Ranking Member Lugar for holding 
this important hearing today and for their past efforts to build and 
foster the critical trans-Atlantic alliance. Today's discussion builds 
on the active role this committee has played throughout the years in 
shaping the future of NATO. Just this spring, the Subcommittee on 
European Affairs held a hearing to mark the 60th anniversary of NATO 
and to consider our alliance's future moving forward.
    We are thrilled to have Secretary Albright here today to discuss 
her leadership efforts in guiding NATO toward a sound, new strategic 
footing, which will ultimately help adapt and transform NATO to better 
meet the complex challenges of the 21st century. I want to welcome all 
of the witnesses here today. We look forward to your testimony.
    As each of you well know, the relationship between Europe and the 
United States touches nearly every critical global challenge. From 
national security to climate change to the international economy, a 
robust United States-Europe bond is vital to global stability and 
progress. We cannot afford to take this relationship for granted, and 
strengthening and adapting the NATO alliance to better meet today's 
challenges should remain near the top of our trans-Atlantic agenda.
    As perhaps the most successful regional security alliance in 
history, NATO celebrated its 60th anniversary this year. Like any 
institution which has reached its sixth decade in existence, NATO must 
find a way to transform and reinvigorate itself on a regular basis in 
order to meet shifting realities and rapidly changing environments. The 
``Strategic Concept'' process is an important opportunity to make a 
bold and ambitious, yet realistic, statement on the future of this 
alliance. We should not let it slip by.
    As a coalition that operates on consensus, it will be difficult for 
NATO to find unanimous agreement among its 28 members on complex issues 
like NATO enlargement, the nature of its relationships or the scope of 
its missions. Despite the complexities, we should not avoid these 
discussions for fear of conflict. Disagreement should be a healthy 
exercise for any large, consensus-seeking body, and we should robustly 
engage in these important discussions in a transparent and constructive 
manner.
    In examining the challenges before the alliance, Afghanistan--
NATO's first ``out of area'' military commitment--remains the most 
pressing issue, and success there should be the priority for NATO into 
the near term. The question of enlargement remains contentious between 
alliance members. In addition, NATO's complex and uncertain 
relationship with Russia permeates nearly all of the issues the 
alliance faces and will require our constant attention. It is equally 
important, however, that we also consider NATO's evolving relationship 
with institutions like the EU and the U.N., as well as our ties with 
new and emerging partners in Asia and beyond.
    One of the more difficult areas to find consensus will be in 
determining the scope of NATO actions into the future. What will NATO 
do? What missions should it take on? When should NATO lead the 
international community? When should it take a back seat?
    The threats of the 21st century are more complex and ambiguous than 
ever before. Though territorial defense still remains a priority, new 
challenges like cyber warfare, climate change, energy security, missile 
defense, pandemic disease, and proliferation constitute threats to our 
alliance members. NATO will simply not be able to meet every challenge 
that threatens its members. With the understanding that NATO's 
resources and capabilities are limited, the alliance will need to 
clearly define where and when it will engage on these threats.
    Consensus on any of these issues will be extremely difficult. All 
institutions--if they are to be successful in the long term--must make 
difficult decisions on their future.
    After two devastating world wars fought on European territory in 
the first half of the 20th century, the North Atlantic Treaty 
Organization has succeeded in bringing together a Europe that is whole, 
free, and at relative peace over the last six decades. If our alliance 
is to be successful for another 60 years, we will need to tackle these 
difficult questions today. I hope the United States will take the 
opportunity of the ``Strategic Concept'' process to the lead in pushing 
the alliance to make bold, ambitious, and definitive decisions on the 
future of NATO.

    Senator Shaheen. You've talked a little bit about the 
Strategic Concept debate as an opportunity for us to rethink 
our commitment to NATO and what its role should be in the 
future. As we're looking at that, what should the United States 
priorities be for developing the new Strategic Concept?
    Ambassador Albright. Well, my answer is in two parts. I 
think one is, obviously we are in NATO and believe in NATO 
because it's good for American national interests. And I think 
we have to figure out to what extent it does address itself to 
these new threats and to what extent it is prepared to take on 
antiterrorist activity and issues having to do with cyber 
terrorism and energy. I think we need to prepare it to deal 
with new threats, since it's no longer against the Soviet 
Union.
    I also think, though, that among our priorities has to be--
and it's some of what you all have been talking about--is how 
to make sure that the burden is shared better, that there 
really is an understanding. I do believe in American 
leadership, but not in the way that, you know, we do all the 
work and the heavy lifting.
    So, it's a combination of making sure that the alliance 
actually does deal with the 21st century and also that there is 
an equitable distribution of what has to be done.
    Senator Shaheen. How important is success in Afghanistan to 
the outcome of the Strategic Concept discussion? How will that 
be affected by Afghanistan and to the future of NATO?
    Ambassador Albright. This, again, is one of the issues that 
we touched on in Luxembourg and that we talk about all the 
time. Clearly it is the prime NATO mission at this time. And 
people are saying that the success of NATO is dependent on the 
success in Afghanistan. I think it will play a very important 
role, but it isn't the only thing that NATO has to look at. So, 
it's very important, but I don't think that the whole future of 
NATO should be judged on the basis of what happens in 
Afghanistan.
    But I do think NATO has to perform well in Afghanistan. And 
its role has to evolve a little bit, in ways that both the 
chairman and the new Secretary General have described. But I 
don't think it can be the be-all and end-all for NATO.
    I think what is interesting is what has changed about 
NATO--and this is what we did in the 1990s--is to move it out 
of area. That is a very different issue. Do you deal with 
something that is not specifically in Article 5? And how far 
out of area is out of area?
    All I can tell you, as the person--I actually took NATO to 
war in Kosovo; that it was not a simple issue to persuade 
people that this was the right thing to do. It is an evolution. 
And I think that's what we're looking at in the Strategic 
Concept.
    Senator Shaheen. And so, how much will what's happening in 
Afghanistan affect the burden-sharing discussion when it comes 
to the Strategic Concept?
    Ambassador Albright. I think it will affect it. There are 
discussions internally in the countries. I think there is this 
question about how much of the burden-sharing is all military 
and how much something else. But I definitely do think that it 
will.
    Senator Shaheen. And is the Strategic Concept process going 
to look at NATO's role in the rest of the world, and what 
strategic significance it should have when it comes to Africa, 
say, or Asia, and what's happening in other parts of the world?
    Ambassador Albright. Yes. We are going to have a seminar 
that looks at NATO in the wider world. We are also going to be 
consulting and dealing with other aspects of various 
organizations that are out there; obviously the OSCE is one of 
them. There is also the Istanbul initiative and ongoing 
activities in the Mediterranean. And piracy--antipiracy is one 
of the unpredictable 21st century issues. So, yes, we are going 
to be looking at that.
    Senator Shaheen. OK. Thank you, Madam Secretary.
    The Chairman. Thank you very much.
    Senator Kaufman.
    Senator Kaufman. Mr. Chairman, I want to join what should 
be, and is, a chorus of folks thanking you for what you did 
these past several weeks. I think, to me, the single most 
important question we have to answer in Afghanistan has to do 
with governance and whether--as we know, in counterinsurgency 
there's a battle between the government and the Taliban, not 
between the United States and the Taliban. And I think without 
what you did, we would be in real trouble over there, in terms 
of not moving the ball forward. And I think it was--having just 
returned from there--extraordinarily difficult to accomplish 
what you accomplished. So, I want to thank you for what you 
did, and how important it is. And I think it's one of the 
reasons why the President's taking time to make his decision. 
Governance is an important part of it, and how the government 
over there behaves is key, and you really took us a long way 
toward being successful.
    Madam Secretary, you have just made my day. I've been a 
NATO supporter in the trenches all these years, and I'm really 
starting to have doubts. And what you said, in terms of how we 
should approach this, sums up my feelings on NATO. And I think 
that the members here have asked you good questions, everything 
from, ``Will it become an organization that just--you get in--
it's really important to get in, but after you get in you don't 
do anything?'' Is that the standard? Or is the standard we're 
still a military alliance?
    And I'd like to kind of have you put on your former 
Secretary of State hat, as opposed to Commission, and just kind 
of go to 50,000 feet on just two main questions. One is the 
military. You know, in Bosnia, 19 Foreign Ministers had to sign 
off on targeting, which was a nightmare. We now have 28 
members. When you travel to Afghanistan--we keep coming to 
Afghanistan, because that's really the test case for all this--
and you start hearing about the caveats that individual NATO 
countries are required to have on each one of their 
involvement. Just give me some hope that there is--that NATO 
can really, honestly, be a military alliance that can work in 
the field to reach some kind of a military objective or 
political objective.
    Ambassador Albright. Senator, I think it can. I think that 
what has to happen--and we will get to this--is to look at the 
decisionmaking process. First of all, I'm sorry I made your day 
in that particular way, because I don't want to sow doubts 
about the alliance, generally. I think that there are questions 
about what its role is and how it operates and how it moves in 
this very unpredictable environment that we're in, but having 
been somebody that was a decisionmaker, there are not a lot of 
tools out there in order to accomplish what we want.
    And I think that a multilateral alliance, such as NATO, has 
been and will continue to be a very important way of operating 
in an unpredictable world.
    And so, what I'm hoping is that this particular exercise 
that we're involved in will actually make NATO more useful for 
what we're dealing with now.
    So, I don't want you to think I'm not supportive of it, 
because I am; I just think it needs to be looked at within the 
tasks that are accepted now.
    The other part, though, that I have to tell you, we do want 
to run a completely transparent process, here. And so much of 
what we do these days has to do with public opinion, as it 
should. And if the United States begins to doubt the value of 
NATO, that will have a follow-on effect, in terms of what's 
going on in other countries. So we have to ask these questions 
in a way that, I think, allows us to have an honest discussion, 
but without diminishing the importance of NATO, because, you 
know, all of a sudden people will start to say, ``The United 
States doesn't want to be in Europe.'' And again, I point to 
Vice President Biden. He is involved in a really important 
trip, in terms of giving the necessary reassurance. And I think 
that the Strategic Concept, one of its priorities, Senator 
Shaheen, is finding a way to reinforce this idea of 
reassurance.
    Senator Kaufman. Yes, and I--and that's where I am. I think 
there are real doubts. I mean, I think the questions raised 
here are, by and large, really valid in terms of going from 19 
to 28. Can you make decisions? What are we trying to do? Are 
there free riders? And I think the fact that you're addressing 
them is really what we need. And that's the part that made my 
day.
    Ambassador Albright. OK.
    Senator Kaufman. I just think--you know, the idea that you 
understand that there are doubts, that we all agree--I mean, 
Senator DeMint just said about how--the historical role that 
NATO has played. We all know that they've been great players in 
the past. They've been key. They're important. And I don't--
frankly, don't know what we'd do without them. But, in the 
meantime, we have to face these doubts about functioning in 
places like Afghanistan and Bosnia. Can we really have a 
decisionmaking process that works?
    Second part is the civilian surge. I mean, obviously a 
civilian surge is hard. And I just had a briefing yesterday 
from S/CRS and the State Department in how incredibly difficult 
it is to just have the right civilians available when you need 
them, who--at the time that you need them. And then going, 
again, to Afghanistan, and going around to each one of the PRTs 
and seeing the kind of civilian help they need, and how the 
different--you know, one country decides to give this, another 
country kind of gives this--like a food bank. You know, you 
just wake up one morning and you've got all this kind of food. 
You don't know whether it's really healthy for the people, but 
it's all there.
    So, again from 50,000 feet, in terms of civilian surge, how 
are we going to operate that, with so many diverse players in 
the puzzle, to make sure that we end up with troops--civilians 
on the ground--that we need, when we need them?
    Ambassador Albright. Well, I think that is a huge question. 
In the U.S. Government, it goes to the whole issue of the 
relationship between State and Defense. Internationally, I 
think that there are numbers of countries that want to help. 
And again, it's the coordinating mechanism. And the question is 
whether that coordinating mechanism comes through NATO or 
through the EU or through the U.N., but something has to happen 
to coordinate that. I mean, the worst part that I've noticed is 
that there's either no effort or a duplication of effort. And 
so, there has to be something there.
    The other part is that there has to be more reward, so to 
speak, for the civilians. We don't focus enough on the dangers 
that are there for them and the hard work that they put in, and 
that they are very much a part of the effort. We need to 
recognize the very important part they play, and then push for 
a variety of coordinating activities.
    Senator Kaufman. One final thing. You're at NDI; you're an 
expert on strategic communications. What can we do in bettering 
strategic communications, not on the total mission, but where 
our troops are deployed?
    Ambassador Albright. As you know, NDI is there in 
Afghanistan, and we're going back for the planned runoff 
election. NDI's efforts underline for me the importance of 
listening a little bit more to what Afghans have to say, 
instead of telling them what to do all the time. I think that 
what is interesting is the number of people that actually did 
go out and vote. You know, we've kind of forgotten about that. 
And the people that went there for NDI saw the bravery of the 
people coming out. And so, I think listening more to what they 
do have to say, and understanding that strategic communications 
is a two-way activity is valuable.
    Senator Kaufman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    And I thank all my colleagues for their comments about the 
last few days. I appreciate it very, very much.
    Let me just very quickly say, because we have another 
panel--I'm informed we have a vote at around 11:50, and that 
means we'll have a grace period, so we'll have about half an 
hour before chaos will envelop us. So, I want to try to push it 
forward. But I did just want to ask you a question very, very 
quickly before we switch, if I may.
    It's become clear that the European Union, through the 
European Security and Defense Policy, is something of a factor. 
Call it a major factor, but it's certainly an important factor 
in transatlantic security policy decisionmaking. A lot of 
observers are concerned that cooperation between NATO and the 
EU is poor and inefficient. And now we have this kind of 
pyramid--convoluted defense-security relationships, none of 
which are streamlined and working as effectively as possible, 
and some of which leave out the enormously important countries, 
with respect to the kind of threats that we face today.
    So I haven't figured it out yet, but I'm very troubled by 
the process. And I hope that you all are going to think very 
clearly about, Are we matching our methodology to the threat? 
And if I were to ask you today, ``What is the greatest threat 
that, in your judgment, links the NATO members and the United 
States?'' what would the answer to that be?
    Ambassador Albright. Well, I----
    The Chairman. What is the biggest threat to our security?
    Ambassador Albright [continuing]. I think it is trying to 
deal with the combination of terrorism, nuclear proliferation, 
and energy.
    The Chairman. I agree with that, pretty much. I'd add, the 
overall climate change----
    Ambassador Albright. But, that--it goes to the----
    The Chairman [continuing]. Energy piece, so, if you take 
that context, you've got to have Russia. You've got to think 
about the ``stans'' and what's happening there, and down into 
South Asia. And they don't figure directly into NATO, except to 
the degree that NATO is in Afghanistan, which sort of leads you 
to say, ``OK, why aren't we getting a better effort out of them 
with respect to that?''
    So I would simply comment to you that we have to match the 
threat--the cold war was the cold war, very clearly delineated, 
East/West, bipolar relationship. And things were a lot simpler 
in that context. And we exploited it, to a degree, because we 
were able to put almost every major decision in that context. 
That is not the world we live in today, but we live with NATO, 
which is not responding adequately to the reality of the real 
threat that we face. And nations that we need to have respond 
to that real threat are outside of it.
    So, there's a fundamental paradigm conflict. I'd just leave 
it on the table, at the last moment here. It bears much more 
discussion, and I hope the second panel will get into that. 
But, it's what troubles me in this conversation, Madam 
Secretary.
    Ambassador Albright. Well, Mr. Chairman, I do think that we 
are going to have a seminar of the experts looking at moving 
out of area in that particular way. I think that the whole 
world has shifted over to the East on this particular issue. 
And I agree with you on--specifically, we are going to have an 
experts meeting with the EU so that we can see some of those 
things.
    I hope very much that if we can't solve everything, we will 
have, in fact, put all these questions on the table. But, we 
are all going to be working very, very hard. This expert group, 
I think, has a very good rapport already. We've kind of 
subdivided the work. We will be giving building blocks to the 
Secretary General. But, I hope very much that we can keep a 
running conversation.
    The Chairman. Well, we will, and this is probably a very, 
very poor analogy, but you know how kids get that little block, 
and it has round holes and----
    Ambassador Albright. Yes.
    The Chairman [continuing]. Triangles and squares, and you 
fit the things in it? We've got to ask ourselves if we're 
trying to take a whole brand new one and take one of the pieces 
from that and fit it into the old one and see whether or not 
it's round or----
    Ambassador Albright. Yes.
    The Chairman [continuing]. Square or triangular, and 
doesn't fit any of the holes. I don't know the answer, but 
we're operating in a very convoluted----
    Ambassador Albright. Yes.
    The Chairman [continuing]. Exclusively slow responding, and 
not completely fulfilling structure, and it is greatly 
complicating the challenge to us in Afghanistan, Pakistan, 
India, proliferation and other issues.
    Ambassador Albright. Yes.
    The Chairman. Thank you.
    Ambassador Albright. Thank you very much.
    The Chairman. I don't know if other colleagues want to have 
any last words--before we----
    Senator Corker. I know it's time to press on. I guess the 
bottom question would be, Should we wait until you complete 
your work to move ahead any more with any additional NATO 
admissions?
    Ambassador Albright. Whether we should wait? Well, I don't 
think there's any immediate proposal. We're supposed to be done 
with our work by the spring. But, really--that's your problem. 
[Laughter.]
    Senator Corker. But----
    Ambassador Albright. No. I really do--I think that there 
are various ways----
    The Chairman. I'll bet you wouldn't have said that if you 
were the sitting Secretary of State. [Laughter.]
    Ambassador Albright. There are some advantages to not being 
the sitting Secretary of State.
    Thank you all very much.
    The Chairman. Thank you so much----
    Ambassador Albright. Thank you.
    The Chairman [continuing]. For being with us.
    Ambassador Albright. Thanks. Yes.
    The Chairman. We really do appreciate it.
    Could we try to get the second panel up as rapidly as 
possible? And I think Senator Shaheen is going to chair the 
second-panel portion of this.
    Senator Shaheen. I'm happy to do that, Mr. Chairman.
    I guess what I'd like to ask the panelists, since, as you 
point out, we have a vote that starts at 10:50, so we've only 
got about a half an hour, is if you could try and condense your 
remarks, please. And we will get to the questioning, but I'm 
also going to shorten the question time so that each person 
gets 5 minutes, so that hopefully everybody who's here will 
have a chance to get in their questions.
    The Chairman. Senator, why don't you come up and take the 
chair here.
    Senator Shaheen [presiding]. Senator Kerry introduced our 
panel at the beginning of the hearing, so I would like to go 
ahead and begin, and ask General Craddock, who is the former 
Supreme Allied Commander in Europe, if he would begin with his 
statement.

   STATEMENT OF GEN JOHN CRADDOCK, U.S. ARMY (RET.), FORMER 
  SUPREME ALLIED COMMANDER-EUROPE, U.S. ARMY, MYRTLE BEACH, SC

    General Craddock. Thank you, Senator Shaheen, Ranking 
Member Lugar, distinguished members of this committee. I 
appreciate you asking me to appear before this committee today 
to testify on the NATO Strategic Concept.
    As my last assignment on Active Duty, was as the Supreme 
Allied Commander of Operational NATO Forces, I will focus my 
comments on the military perspective of the Strategic Concept 
that's being developed over the coming year.
    First, I firmly believe that development of the Strategic 
Concept must include timely and relevant input by the NATO 
military authorities, not only from the military committee, but 
also from the supreme commanders for operations and 
transformation. This input is essential to inform the process 
of just what the two components of NATO's military forces--the 
command structure and the force structure--currently are 
capable of, and what changes or adjustments to those forces 
might be required based on strategy development.
    Now, while the military committee interfaces directly with 
the North Atlantic Council--the NAC--and is the recognized body 
in NATO to provide the NAC military advice, only commanders are 
responsible and accountable for NATO forces and therefore may 
have distinctly different views than the military committee.
    That fact, plus the advice they may render, is not a result 
of a consensus process, and they both compel me to advocate 
that the strategic commanders be consulted in this development 
process.
    Second, much of the 1999 Strategic Concept document is 
still relevant today. And I might provide an example. A 
sentence from paragraph 4 is particularly cogent. It states, 
``The Alliance must maintain collective defense and reinforce 
the transatlantic link, and ensure a balance that allows the 
European allies to assume greater responsibility.'' Indeed, all 
good words. The challenge today, as then, is not in the 
development of what NATO wants to do, should do, or feels 
compelled to do; the challenge for NATO is matching its level 
of ambition with political will to resource the means to 
accomplish its ambitions, or, more specifically, creating and 
sustaining military capability. The development of a strategy 
or strategic concept must address a vision of the endstate, the 
ways possible to accomplish that vision, and the means or the 
resources needed to create the required capabilities.
    The 2010 Strategic Concept must, unlike its predecessor, 
address the ways and means. I believe, absent that, once again 
the disconnect between the vision or level of ambition and the 
political will to commit the resources will continue.
    And while potentially a product of the consensus process, I 
believe the use of such terms and phrases, such as ``allows 
greater participation,'' in practice is not strong enough to 
accomplish the specified intent of greater burden-sharing. If 
the intent is for the next NATO Strategic Concept to strengthen 
the alliance, then that document must be written to mandate 
opting in, not accommodating opting out.
    Third, the Strategic Concept must address the development 
by both NATO collectively and nations individually of 
capabilities specified in the strategy. Capability development 
in the alliance is a complex and difficult task. Defense shares 
of national budgets are shrinking among NATO member nations. 
The Strategic Concept must address this critical area, not only 
from the context of balancing both NATO and national 
investments, but, additionally, I believe, opening linkages to 
regional and international organizations to enhance this 
military capability development.
    And last, may I offer two related points of consideration:
    First is, we have seen repeatedly over the last several 
years in every military operation NATO has undertaken, civil-
military component to operations is critical and must receive 
more attention. The 1999 Strategic Concept gave this area 
short-shrift, dedicating about seven sentences to it.
    Second, NATO can't continue to spar with the European Union 
concerning security capabilities. We've talked about 
cooperation, but have really not done much in terms of working 
together in any meaningful way. The new Strategic Concept must 
set the conditions for real, serious cooperation with the 
European Union. There have been, and will continue to be, 
myriad opportunities, and we must get this right. I believe 
this to be a priority political deliverable for the Strategic 
Concept.
    Once again, thank you for the opportunity to appear, and I 
look forward to your questions.
    [The prepared statement of General Craddock follows:]

   Prepared Statement of GEN John Craddock, U.S. Army (Ret.), Former 
      Supreme Allied Commander-Europe, U.S. Army, Myrtle Beach, SC

    Chairman Kerry, Ranking Member Lugar, distinguished members of the 
committee, thank you for asking me to appear before this committee 
today to testify on the NATO strategic concept. As my last assignment 
on Active Duty--ending on the 2d of July this year--was as the Supreme 
Allied Commander of operational NATO forces--I will initially focus my 
comments on the military perspective of the strategic concept that is 
to be developed by NATO over the coming year, followed by addressing 
other key NATO issues that I believe may be germane to this committee's 
areas of interests.
    First--I firmly believe the development of the strategic concept 
must include timely and relevant input by the NATO military 
authorities--not only from the military committee--but also from the 
Supreme Commanders for operations and transformation. This input is 
essential to inform the process of just what the two components of 
NATO's military forces--the command structure and the force structure--
currently are capable of and what changes or adjustments to those 
forces might be required based on the strategy development. While the 
military committee interfaces directly with the North Atlantic 
Council--the NAC as it is known--and is the recognized body in NATO to 
provide the NAC military advice, only commanders are responsible and 
accountable for NATO forces and therefore may have distinctly different 
views than the military committee. That, plus the fact the advice they 
may render is not a result of a consensus process, compels me to 
advocate that the strategic commanders be consulted in the strategy 
concept development process.
    Second--much of the 1999 strategic concept document is still 
relevant today. For example, a sentence from paragraph 4 is 
particularly cogent: ``it (the alliance) must maintain collective 
defence and reinforce the transatlantic link and ensure a balance that 
allows the European allies to assume greater responsibility.'' Indeed, 
all good words. The challenge today, as then, is not in the development 
of what NATO wants to do, should do, or feels compelled to do. The 
challenge for NATO is matching its level of ambition with its political 
will to resource the means to accomplish its ambitions--or more 
specifically--creating and sustaining military capability. The 
development of strategy, or a strategic concept must address a vision 
of the end state, the ways possible to accomplish that vision, and the 
means--or the resources--needed to create the required capabilities. 
The 2010 strategic concept must, unlike its predecessor, address the 
ways and means. Absent that, once again, the disconnect between the 
vision--or level of ambition--and the political will to commit the 
resources, will continue. And while potentially a product of the 
consensus process--the use of such terms and phrases as ``allows 
greater participation''--in practice is not strong enough to accomplish 
the specified intent of greater burden-sharing. If the intent is for 
the next NATO strategic concept to strengthen the alliance--then that 
document must be written to mandate ``opting in''--not accommodate 
``opting out.''
    Third--this strategic concept must address the development--by both 
NATO collectively and nations individually--of capabilities specified 
as required in the strategy. Capability development in the alliance is 
a complex and difficult task. Defense shares of national budgets are 
shrinking among NATO member nations. The strategic concept must address 
this critical area--not only from the context of balancing both NATO 
and national investments but, additionally, opening linkages to 
regional and international organizations to enhance this military 
capability development.
    Last--may I offer two related points of consideration. First--as we 
have seen repeatedly over the last several years in every military 
operation undertaken, the civil-military component to operations is 
critical and must receive more attention. The 1999 strategic concept 
gave this area short shrift--about 7 sentences. Second--we can't 
continue to spar with the European Union (EU) concerning security 
capabilities. We have talked about cooperation but have really not done 
much in terms of working together in any meaningful way. This new 
strategic concept must set the conditions for real, meaningful 
cooperation with the EU. There have been and will continue to be myriad 
opportunities--we must get this right. I believe this to be a priority 
political deliverable for the strategic concept.
    If I may, I would like to touch on a few other topics relevant to 
this committee's interest.
    First--the implications for NATO of operations in Afghanistan. 
While the saceur--and at every opportunity since--I have stated 
publicly and privately that NATO members must fully source the 
International Security and Assistance Forces (ISAF) in Afghanistan if 
the alliance is to prevail. First and foremost, NATO must resource the 
NATO training mission--Afghanistan--that the heads of state and 
government agreed to at the 60th summit this past April. Building 
competent, capable, uncorrupt security forces is the highest priority 
task in Afghanistan. I do not believe Afghanistan is on the verge of 
falling to the insurgents, but I do believe the insurgency has spread--
not surprisingly--to the west and a bit to the north of the country. 
There are 2 reasons for this in my mind--a lack of security forces 
available in all districts and municipalities--but more importantly--a 
growing trend of lack of confidence in government at all levels by the 
people of Afghanistan due to increased corruption, inability by any 
level of government to deliver social services and infrastructure, and 
a general feeling of disenfranchisement. NATO is eagerly awaiting the 
outcome of the U.S. strategy/resource discussions and the decision that 
will follow. I believe once decided, another window of opportunity will 
be open to enlist greater NATO member contributions to ISAF and 
Afghanistan, both in the military and the civilian sector.
    Another key activity in NATO is the full participation of France in 
the military structure. My assessment is that effort is on track, 
though much remains to be done. An important and high visibility 
activity is the allocation of flag officer posts of the NATO command 
structure to NATO members to bid on--to include France. That process 
was completed by the military committee last spring, approved by the 
NAC, and is now--and for the next 9 months or so--a work in progress. 
Of note is the fact that two of the senior postions--the Supreme Allied 
Command for transformation and the Commander of the Joint Forces 
Command headquarters in Lisbon, Portugal--both changed to French-flag 
officers in July and September respectively. At the staff level, the 
French are now identifying staff officers and noncommissioned officers 
to fill positions on many of the NATO command structure headquarters 
staffs. In sum, my assessement is that all is working as intended at 
this time but it will be several months before a judgement can be made 
with regard to efficacy.
    NATO's political leadership has stated that enlargement is in the 
best interest of NATO and its doors remain open. From the military 
perspective on enlargement, we must maintain the rigorous standards 
already established to ensure that new members are providers of 
alliance security--not consumers of security. Additionally, we have 
learned much over the past two decades concerning the processes and 
programs for enlargement--partnership for peace (PFP), membership 
action plan (map), etc. Based on that experience, it is now time to 
update our templates to reflect the new strategic environment and 
different security capablility assessment tools. Every potential member 
is unique and we must recognize that in our approach. With regard to 
Ukraine and Georgia--while military engagement, cooperation, and 
assessments are ongoing--any progress toward NATO membership remains 
firmly in the political arena.
    Military-to-military cooperation with Russia remains difficult and 
complex. NATO military authorities must receive political guidance to 
fully reengage with Russian military authorities--if that guidance has 
been forthcoming, it has been very recently. I believe the key for 
opening this effort is to find areas of common military interests for 
both NATO and the Russian Federation and pursue those. 
Counterproliferation, counterterrorism, humanitarian and disaster 
relief, and counternarcotics efforts are but a few of the areas of 
common interests. These become the start point for this essential 
cooperation.
    In my previous comments on the NATO strategic concept I indicated 
more must be done with the EU. My experience during my time as saceur 
was that from the military perspective, there was interest and 
enthusiasm on behalf of both EU and NATO military authorities to find 
opportunities to train and operate together. That same experience 
informs my judgement that significant political difficulties exist 
that, until eroded or breached, will prevent this needed cooperation. 
This is a high-priority area for the politicos of both NATO and the EU, 
and bilaterraly for the United States and European nation leaders. Our 
mil-to-mil efforts are repeatedly thwarted by old feuds and rivalries 
that do not serve alliance nor EU interests. They can't continue to be 
ignored.
    Once again, Chairman Kerry, Ranking Member Lugar, and members of 
the committee, thank you for this opportunity. I look forward to your 
questions.

    Senator Shaheen. Thank you very much.
    Next, we have the Honorable Kurt Volker, who is the former 
Permanent Representative to NATO and currently the managing 
director at the Center on Transatlantic Relations at Johns 
Hopkins.
    Very nice to have you here. Thank you.

STATEMENT OF HON. KURT VOLKER, FORMER PERMANENT REPRESENTATIVE 
    TO NATO, SENIOR FELLOW AND MANAGING DIRECTOR, CENTER ON 
TRANSATLANTIC RELATIONS, JOHNS HOPKINS UNIVERSITY, WASHINGTON, 
                               DC

    Ambassador Volker. Thank you, Madam Chairman. And thank 
you, Senator Lugar, and all the Senators for being here. I have 
a written statement I'd submit for the record.
    As you know, I served as Ambassador for 1 year, and I'm 
very grateful to the members of this committee for supporting 
my nomination in 2008.
    In over 20 years of dealing with NATO issues, I've observed 
NATO transform a lot: from being a cold war alliance to one 
focused looking outward, engaged in civil-military operations, 
taking on a new range of security threats, together with 
partners and around the globe.
    Yet, despite this transformation, I'm deeply concerned 
about the state of our alliance today. NATO is in trouble. It 
faces significant challenges from both outside and from within. 
In my view, we need a renewed political compact on security 
between Europe and North America. The firm establishment of the 
past is fading. The establishment of a new compact at a 
political level should really be the central task of the 
ongoing effort to produce a new strategic concept. Such a 
compact would not change U.S. or any other allies' obligations 
under Article 5; rather, it would constitute a fresh, common 
understanding of what those obligations are in today's vastly 
changed security environment.
    At the heart of it is the idea that the United States 
remains committed to Europe itself, a reliable ally that will 
share decisionmaking and do its part to guarantee a strong, 
secure, democratic Europe. But in return, Europe must put its 
full weight behind joining the United States in tackling the 
global security challenges that affect us all. Such a compact 
would have to address a common approach to dealing with Russia; 
a common commitment to facing new threats and challenges, both 
inside and outside of Europe; a renewed commitment that our 
shared goal remains a Europe whole, free, and at peace; and a 
commitment that each of us will put the full measure of our 
human and financial resources behind making NATO's work a 
success.
    There are a few fundamentals that I want to touch on; 
they've been addressed in some of the earlier question-and-
answer.
    First, NATO has always been about values. Having an 
organization that serves as a means of pulling the 
transatlantic community together to produce joint action in 
support of shared democratic values remains essential.
    Second, NATO's purpose was never really about perpetuating 
itself or its own relevance, but about helping people to live 
in freedom, democracy, and security in the Euro-Atlantic area. 
NATO underpinned the growth of a Europe whole, free, and at 
peace, and that work is not done. We have Ukraine and Moldova, 
Georgia, Bosnia, Montenegro, Serbia--many of Europe's neighbors 
still struggling to implement democratic systems, economic 
reform, live in security, and be part of our community.
    Third, since the end of the cold war, there emerged serious 
new threats and challenges, and Senator Lugar spoke about these 
eloquently. It's a greater diversity of threats than at any 
time in the past. We have to come together at NATO as to how to 
deal with these.
    Fourth, it's essential that the United States and Europe do 
work together to address common challenges. It doesn't work for 
either of us to try to go it alone. We--it only is effective 
when we work together.
    And fifth, if I--if you permit me, I'd just like to observe 
that NATO has always been an issue that has enjoyed bipartisan 
support in this country. I think that's terribly important and 
is one of the things that has contributed to the success of 
NATO over its 60-year life span.
    Despite NATO's ongoing transformation, as it has 
transformed, differences have grown among allies at the same 
time. Today, I would say that our allies disagree over the 
importance of Afghanistan, the nature of our relationship with 
Russia, what constitutes an Article 5 threat; whether NATO is 
the principal venue for security and defense of Europe, 
whether, when, and how NATO should continue to enlarge, what 
solidarity means in the face of 21st century challenges, how 
much our societies should invest in security and defense, and 
how much NATO should focus inside the Euro-Atlantic area versus 
outside.
    We need to rebuild a firm consensus on these issues, and 
that should be the work of the Strategic Concept group. I think 
we should feel lucky that we have a former Secretary of State 
representing the United States in this process. It needs to be 
a process that engages the political leadership of every allied 
country, because it has to, in the end, result in that 
political compact that I discussed.
    I'd be happy to go on in the question-and-answer, 
particularly to focus on Afghanistan, some of Senator Corker's 
questions about enlargement and the future of that, dealing 
with Russia, and then energy issues and new threats and 
challenges.
    Thank you again for having me here.
    [The prepared statement of Ambassador Volker follows:]

Prepared Statement of Hon. Kurt Volker, Former Permanent Representative 
 to NATO, Senior Fellow and Managing Director, Center on Transatlantic 
          Relations, Johns Hopkins University, Washington, DC

    Thank you Mr. Chairman, Senator Lugar, and all the distinguished 
Senators here today for the opportunity to testify about the North 
Atlantic Treaty Organization.
    As you know, I served as the 19th U.S. Permanent Representative on 
the North Atlantic Council, from August 2008 to May 2009. I remain 
extremely grateful to the members of this committee for supporting my 
nomination to that position in 2008.
    That posting came at the end of a career spanning over 20 years in 
government in which I worked on NATO issues from a number of different 
perspectives during the course of five U.S. administrations:

  <bullet> As a desk officer for NATO issues in the State Department;
  <bullet> As a political-military officer in Budapest when it was 
        aspiring to join NATO;
  <bullet> Here in the Senate as a legislative fellow during the year 
        of the Senate's ratification of the first modern round of NATO 
        enlargement;
  <bullet> As Deputy Director of the NATO Secretary General's Private 
        Office;
  <bullet> As a senior official in both the National Security Council 
        and the State Department;
  <bullet> And finally as U.S. Ambassador.

    In these various capacities, I had the opportunity to contribute to 
NATO's 1991 and 1999 Strategic Concepts, NATO enlargement, NATO's 
partnerships, NATO operations in Bosnia, Kosovo, Afghanistan, and 
elsewhere, the 50th and 60th anniversary summits, and countless 
ministerial and summit meetings. It has been a unique privilege to 
serve both my country and the greatest alliance in history in so many 
ways and I am thankful for the opportunity.
    During these two decades, I have seen NATO transform dramatically: 
from a cold war alliance focused on deterrence and preparing for the 
defense of Europe against the Soviet Union, to a much larger, outward 
looking alliance--one that is engaged in civil-military operations, and 
aimed at tackling a new range of security threats, together with many 
partners, in places around the globe.
    Despite this remarkable transformation, I am deeply concerned about 
the state of our alliance today. NATO is in trouble. It faces 
significant challenges from both outside and within.
                      a new transatlantic compact
    In my view, we need a renewed political compact on security between 
Europe and North America. The firm establishment of the past is fading. 
The establishment of a new compact, at a political level, should be the 
central task of the ongoing effort to produce a new NATO Strategic 
Concept.
    Such a compact would not change U.S. or any other allies' 
obligations under Article 5 of the NATO Treaty. Rather, it would 
constitute a fresh, common understanding of what those obligations are 
in today's vastly changed security environment.
    At its heart is the idea that the United States remains committed 
to Europe itself--a reliable ally that will share decisionmaking and do 
its part to guarantee a strong, secure, democratic Europe. And Europe, 
in turn, must be prepared to put its full weight behind joining the 
United States in tackling the global security challenges that affect us 
all.
    Such a political compact needs to encompass:

  <bullet> A coherent transatlantic approach to dealing with Russia;
  <bullet> A common commitment to facing new threats and challenges 
        both inside and outside of Europe;
  <bullet> A renewed commitment that our shared goal remains a Europe 
        whole, free, and at peace; and
  <bullet> A commitment that each of us will put the full measure of 
        our human and financial resources behind making NATO's work a 
        success.
             fundamentals of the transatlantic relationship
    Before discussing in greater detail these current challenges to 
NATO and ways to address them, let me stress some fundamentals.
    First, as clearly stated in its founding document, the Washington 
treaty, NATO has always been about values. Having an organization that 
serves as a means of pulling the transatlantic community together, to 
produce joint action in support of shared democratic values, remains 
essential today.
    After defeating fascism and faced with expansionist Soviet 
communism, the transatlantic community established NATO out of the 
recognition that the universal human values that underpin our 
societies--freedom, market economy, democracy, human rights, and the 
rule of law--remained under threat and had to be actively defended.
    We recognized that the democracies of Europe and North America--
though by no means having a monopoly on values--nonetheless had a 
special place in defining, sustaining, protecting and promoting these 
values for ourselves, and in the world. This ``values foundation'' 
remains at the heart of NATO today.
    Over the years, we have seen that we cannot be indifferent when 
these fundamental values are under threat--whether within Europe or in 
other parts of the world--even if the threat to our own societies may 
seem less immediate. Our democracies are safest in a world where 
democratic values are in ascendance, and at ever greater risk when they 
are in retreat.
    Second, NATO's purpose was never about perpetuating itself, or 
assuring its own ``relevance.'' Rather, it has always been about 
helping people to live in freedom, safety, and growing prosperity--
first by defending the West, and then, when possible, by being open to 
new members from the east and south joining this values-based 
community.
    In other words, NATO underpinned the growth toward a Europe whole, 
free, and at peace. This work is far from over, and indeed we have seen 
regression in recent years. We need to get back on track.
    The 15 years that followed the fall of the Berlin Wall marked a 
period of remarkable construction and progress in this historic 
mission. NATO grew from 16 countries in 1989 to 28 today. Likewise, the 
EU grew from 12 to 26 members. Today, over 100 million people now live 
in free societies that are more prosperous and fundamentally secure, 
compared to the divided Europe of pre-1989.
    Yet the work of creating a Europe whole, free, and at peace is far 
from complete. Indeed, we have seen a rise in authoritarianism, and 
curtailments of freedom and justice in Russia and some other states of 
the former Soviet Union. We have seen flareups of nationalism and 
ethnic rivalry in the Balkans and even Central and Eastern Europe. 
Ukraine, Moldova, Georgia, Montenegro, Bosnia, Serbia and others of 
Europe's neighbors need to continue their development--and thus far, 
they remain outside of NATO and the EU.
    Some argue that further growth of this democratic community is a 
``threat'' to Russian interests. I firmly disagree: The growth of 
freedom, prosperity, and security in Europe is a threat to no one. 
There is no ``zero-sum'' between the interests of the Euro-Atlantic 
community as a whole, and Russian interests--we are part of a common 
space. Indeed, Russia should be a vital part of this democratic 
community in Europe--but to do so, Russia must live up to the same 
democratic, good-neighborly standards as the rest of us.
    Acceding to the logic that the growth of a democratic space in 
Eurasia is a ``threat'' to Russia would subordinate the interests of 
the millions of people living in states near Russia to the wishes of an 
increasingly nondemocratic Russian leadership.
    It is essential that the transatlantic community renew momentum 
toward the creation of a Europe that is truly whole, free, and at 
peace, anchored on democratic values, for the benefit of all of its 
citizens, whether in the East, West, North or South. NATO remains vital 
to the realization of this vision.
    Third, since the end of the cold war, there have emerged serious 
new threats to the security of the allies. Indeed, there is a greater 
diversity of threats--in terms of both geography and nature of 
challenge--than at anytime in the past.
    Washington, London, Madrid, and Istanbul have all been subject to 
terrorist attacks linked to an ideology of violent extremism, and 
inspired from territories outside of Europe. Failed or weak states 
create havens for terrorism, crime, and proliferation. Our information 
societies are at risk from cyber attacks, and our developed economies 
can be at risk from energy shutoffs. All of these are examples of 
threats that can come, as one of my predecessors, Nick Burns, used to 
say, from ``the dark side of globalization.''
    But we must remember that state-level threats have not entirely 
disappeared. We see Iran developing missiles and nuclear technology. 
Last year, in Georgia, we saw Russia abuse its position as a 
peacekeeper to invade Georgia and break off Abkhazia and South Ossetia 
from Georgian territory by military force. This comes on top of Russia 
shutting off gas supplies to Ukraine, affecting NATO ally Bulgaria, and 
suspicions of Russian involvement in cyber attacks against Estonia.
    Fourth, it is essential that the United States and Europe work 
together to deal with our common challenges. The temptation for the 
United States to decide things on its own, or to assemble a coalition 
of willing states--or alternatively, the temptation that Europe should 
act on its own, or act as a counterweight to the United States--is a 
chimera.
    The United States and Europe share the same fundamental, democratic 
values; we face the same challenges in the world; and we can only deal 
with these challenges effectively if we deal with them together. It is 
hard work, but necessary.
    This is true in practice as much as it sounds good in theory: 
whether it is Afghanistan, or nonproliferation, or counterterrorism, or 
antipiracy, or dealing with a more assertive Russia, we are in fact 
working together everyday. We are most successful when we have the most 
coherent and committed transatlantic set of policies--and least 
successful when we don't.
    That is why having a strong Europe, and a strong EU, is 
fundamentally in America's interest. And also why being a ``good 
European'' must include also being a ``good Atlanticist.''
    And fifth among these fundamentals, permit me this observation: In 
contrast to a number of other foreign policy issues, NATO has always 
enjoyed bipartisan support and commitment in the United States. I 
believe this has contributed to the success and strength of NATO over 
the years, and I believe all of us must do whatever we can to continue 
this bipartisan support for NATO.
    These foundation stones--values, a Europe whole and free, facing 
real threats in the world today, genuine transatlantic partnership, and 
bipartisan U.S. commitment--are all essential. Let us not forget them.
                     nato's transformation thus far
    In building on these foundation stones, NATO has already adapted to 
the 21st century world in four principal ways:

  <bullet> By enlarging, in three waves thus far;
  <bullet> By creating partnerships--the Partnership for Peace and 
        Mediterranean Dialogue, the NATO-Russia and NATO-Ukraine, the 
        Istanbul Initiative, the growth of partnership with friends 
        around the globe, and the NATO-Georgia Commission;
  <bullet> By becoming operational--from zero operations before 1995 to 
        Bosnia, Kosovo, Afghanistan, Iraq, Active Endeavor, airlift to 
        Darfur, and humanitarian relief;
  <bullet> By moving away from large, heavy militaries to smaller, 
        lighter, more expeditionary forces.

    Each of these aspects of transformation has been vital to NATO 
carrying out its founding mission of collective defense, but in a 
vastly different security environment.
  serious challenges facing nato today--and the role of the strategic 
                                concept
    Yet as NATO has transformed, the consensus within the transatlantic 
community about NATO's roles and its future has weakened. Despite its 
successful transformation, we now find ourselves with a NATO that is at 
serious risk.
    Allies disagree on such key issues as:

  <bullet> The importance of Afghanistan;
  <bullet> The nature of our relationship with Russia;
  <bullet> What constitutes an Article 5 threat;
  <bullet> Whether NATO is the principal venue for the security and 
        defense of Europe;
  <bullet> Whether, when, and how NATO should continue to enlarge;
  <bullet> What ``solidarity'' means in the face of 21st century 
        challenges;
  <bullet> How much our societies should invest in security and 
        defense; and
  <bullet> How much NATO should focus inside the Euro-Atlantic area, 
        versus addressing threats that arise far from our own 
        territory.

    Rebuilding a firm consensus on these critical issues should be the 
work of the Strategic Concept. We are lucky to have a person with the 
stature of a former Secretary of State representing the United States 
in this process.
    For the work of the Strategic Concept to succeed, however, it must 
become a personal priority for leaders on both sides of the Atlantic--
at the Head of State and Cabinet levels. Otherwise, it risks becoming a 
piece of paper adopted by experts, but without harnessing the genuine 
political will and commitments to provide the necessary resources from 
each of the NATO nations.
                       specific areas of concern
    Finally, I would like to make a few observations about some of the 
specific issues on which allies are divided. I'll do so in three 
clusters.
    First is Afghanistan. What happens in Afghanistan is vital to the 
future of NATO, and indeed a test case for NATO. Can it survive in the 
21st century or not?
    I believe that the attacks on September 11, 2001, and later in 
Madrid and London, and now the events in Pakistan today, all show that 
what happens in Afghanistan and Pakistan is vital to the security of 
the wider region, to Europe, and to the United States. What happens 
there has a direct effect on our own security.
    In addition, the majority of people in Afghanistan and Pakistan 
want to live in a peaceful society open to improved economic growth, 
health care, education, human rights, and so forth--but they face an 
armed enemy hostile to these aspirations and they need our help.
    Unfortunately, allied leaders have seldom made the case to publics 
about the importance of Afghanistan for European security or human 
rights. If their own leaders are not explaining the case, publics are 
understandably deeply skeptical about NATO's efforts there.
    And in turn, public skepticism means that many governments seek to 
minimize what they do in Afghanistan--making ``contributions'' but not 
taking ``ownership'' of the outcome. This applies to European civilian 
and financial contributions, including through the EU, as well as 
military contributions.
    This is a dangerous situation. By having agreed to the NATO 
operation, but then in the case of many allies failing to provide as 
much civilian, financial, and security support as possible and 
necessary, we risk failure on the ground, failure for NATO, and strain 
on the solidarity within the transatlantic community. In turn, it will 
increase temptations within the United States to conclude that working 
within NATO, or even working with Europe more generally, is simply not 
worth the time and effort.
    Second is Dealing with Russia, and a host of issues that arise in 
association with Russia. The emergence of a more authoritarian Russia 
that seeks a sphere of influence in neighboring states has drawn 
divergent reactions from Europe.
    Central and Eastern Europe, which recently emerged from Soviet 
domination, seeks strategic reassurance and protection.
    Western Europe prefers a strategy of engagement with Russia, in the 
hopes of winning better Russian behavior.
    These two conflicting orientations play out within NATO and 
elsewhere--on issues such as NATO-Russia relations, Article 5 defense 
planning, Georgia, Ukraine, CFE, energy, democracy promotion, and the 
future of NATO and EU enlargement.
    In a way, both Central and Western Europe are right. Yet neither 
Central Europe's demand for protection, nor West Europe's demand for 
engagement, can succeed alone. Only if we do both simultaneously can we 
forge a unified transatlantic policy and conduct an effective approach 
to dealing with Russia and its neighbors.
    We need to be firm and clear in our expectations of Russia--
especially on democratic values, and on the freedom, sovereignty, and 
independence of Russia's neighbors--while at the same time stressing 
our desire that Russia be a part of our community, and our desire to 
work together with Russia in areas of common concern.
    There should be no limits to the extent of our cooperation with 
Russia, provided Russia implements in practice, both at home and in its 
neighborhood, the same democratic values we expect of ourselves. This 
is, afterall, the genius of the Helsinki Final Act and the foundation 
of the OSCE.
    In the past, the United States has played the role of uniting 
Europe around a set of policies, and we need to do so again today. I 
believe this set of policies should include:

  <bullet> Article 5 defense planning concerning the full range of 
        potential threats facing NATO;
  <bullet> Continued commitment to the vision of a Europe whole, free, 
        and at peace--including working actively with countries that 
        seek to join NATO (Montenegro, Bosnia, Georgia, Ukraine) to 
        assist them in implementing necessary reforms; and
  <bullet> Active engagement with Russia through the NATO-Russia 
        Council wherever common interests make real progress possible.

    Third is the way we deal with new threats and challenges. There are 
those who point to the NATO treaty and say that NATO is meant to deal 
only with military attacks on the territory of NATO members. This view 
asserts a military and geographically limited view of NATO's collective 
defense role.
    An alternative view, to which I subscribe, is that there are now 
many more actors and many more means of ``attacking'' a NATO member 
today than there were in 1949, yet our obligations to each other for 
collective defense remain the same.
    As Senator Lugar has rightly pointed out, the effects on a society 
of seeing its energy shut off--deliberately, by an outside actor--can 
be just as devastating as any military attack.
    Thus our view of what can trigger NATO's Article 5 collective 
defense commitment needs to change. Energy security, cyber attacks, 
terrorism, WMD proliferation, and the consequences of failed or weak 
states, such as in Afghanistan, all have the potential to be Article 5 
issues.
    And similarly, our view of the ways in which NATO needs to deal 
with these threats also needs to change. We should not limit our 
thinking to military force, or to European geography. NATO should 
develop some civilian capacities--such as police training, which it is 
already leading in Afghanistan. NATO should work with other 
organizations and partners as much as possible. And NATO's out-of-area 
operations--such as in Afghanistan or Iraq or off the coast of 
Somalia--are not exceptions, but the new norm.
    Neither should we limit our thinking to using NATO as the 
instrument for action just because we use NATO for broad-based 
strategic coordination. We should be able to use NATO for 
consultations, and agreement on joint action, even if we also agree 
that NATO as an instrument will not be in the lead on execution.
    U.S.-EU cooperation--as important as it is--is not a substitute for 
cooperation through NATO. The United States is not present in EU 
discussions, and when the United States and EU meet, we do so as 
partners across a table. NATO is the one place where all sit together 
around one table, deliberate, and agree common action.
    Related to all this is a question of priorities and resources: The 
United States and Europe are diverging on the priority that our 
societies place on investment in security and defense capacities, and 
our willingness to use them.
    European spending on security and defense as a percentage of GDP is 
at record lows. European politics drives leaders toward coordination 
first within Europe, with transatlantic coordination as a far lower 
priority. Europeans are divided on the use of military force, even when 
Europe's development, governance, and human rights goals cannot be 
achieved without the use of force when faced with armed groups such as 
we see in Afghanistan.
                               conclusion
    Adopting a common view of these issues--the nature of the threats 
we face, how they relate to our commitments to each other as allies, on 
using NATO for strategic coordination, and on how far we go on using 
NATO as an integrating mechanism for civil-military efforts--must all 
be a core part of a new security compact embodied in the Strategic 
Concept.
    Mr. Chairman, the challenges facing NATO today are deep, complex, 
and extremely difficult to overcome. They threaten the very future of 
the alliance. Yet they can be overcome with political will and 
commitment--and followthrough--on both sides of the Atlantic.
    The effort to produce a new Strategic Concept is just getting 
started. It should be a shared goal for people who prize our democratic 
values on both sides of the Atlantic that this Strategic Concept rise 
to the monumental challenge of building a new transatlantic security 
compact for the 21st century.
    Thank you for the opportunity to testify at this hearing.

    Senator Shaheen. Thank you very much. I'm sure you will get 
some of those questions as we get into the next phase.
    Dr. Charles Kupchan--am I pronouncing that correctly?--is 
the professor of international affairs at Georgetown 
University, and a senior fellow on the Council on Foreign 
Relations.
    Welcome. Please begin.

  STATEMENT OF CHARLES A. KUPCHAN, PROFESSOR OF INTERNATIONAL 
   AFFAIRS, GEORGETOWN UNIVERSITY, SENIOR FELLOW, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Kupchan. Thank you very much, Madam Chairman, Senator 
Lugar. I appreciate the opportunity to share my thoughts with 
you.
    Let me begin simply by reiterating what General Craddock 
said a few minutes ago, and that is that it's very important to 
get this right. And that's in part for the reasons that we've 
been discussing this morning: the military effectiveness of 
NATO, collective defense, engaging Russia, succeeding in 
Afghanistan. But, I would throw one other idea into the hopper, 
and that is that NATO is not just a military alliance, but it 
is also perhaps the most important institution that binds the 
West together, that keeps the West a meaningful political 
community.
    And maintaining Western solidarity is not going to be as 
easy, moving forward, as it has been in the past, in part 
because I think there are different threat perceptions that 
have emerged--the United States looking globally, Western 
Europe focused mainly on expanding and consolidating the EU, 
Central Europe still very concerned about Russia--but also 
because I think we will not have the luxury of only focusing on 
the Atlantic community. The rise of China, India, Brazil and 
others means that the Atlantic community has to be as much 
focused outward as it is inward. And in that respect, I think 
we have our work cut out for us.
    Let me just touch on the few key concepts that I would put 
at the core of a discussion about a new Strategic Concept: I'll 
touch on collective defense issues; Russia, Georgia, and 
Ukraine; and then end with a comment on Afghanistan.
    I think that the core of the NATO alliance remains 
collective defense, and that if there is an issue that is at 
the heart of that, it is strengthening the European pillar 
within the alliance to make sure that there is a more equitable 
distribution of responsibility between the two sides of the 
Atlantic.
    And I think there are two pieces of good news on that 
front. One is the Lisbon Treaty, which is going to give Europe 
a more collective voice, and more centralized institutions; and 
the other is the reintegration of France into NATO's integrated 
structure, which hopefully will mean less competition and more 
cooperation between NATO and the EU.
    But, there are also two pieces of somewhat less good news: 
One is, I think, is that beneath the service you are seeing the 
renationalization of politics in Europe, and if, for example, 
the conservatives win the next election in the U.K., as a party 
that is less pro-European, it will perhaps be more difficult to 
get the aggregation of European voices on defense. And I do 
think that if Europe does not aggregate its will and its 
resources, it will gradually become of less strategic relevance 
to the United States. We need to do everything we can to 
encourage Europe to become more self-standing and more capable.
    I also worry about the Turkey question--rather, there are 
many Turkey questions. But a key issue is that Turkey is in 
NATO and not the EU, and we need to find some way of bringing 
Turkey into EU defense planning to get the NATO-European 
linkage better.
    On the question of collective defense in Central Europe, I 
sympathize with the concerns of Central Europeans about the 
reset button with Russia, about the change in missile defense 
plans, and I think the best response to those concerns is to 
increase NATO's operational capability--more training, more 
planning, more exercises, more investment in modernization, 
particularly on the Europe side. I would not move forward with 
the remilitarization of NATO's eastern frontier, as I simply 
think that a Russian threat to NATO countries is, at this 
point, a very, very low probability.
    Finally, I would add to the mix the importance of looking 
at new issues like cyber security, terrorism, and energy, but 
certainly not at the expense of core collective defense defined 
in a more traditional way.
    And finally, I think we do need to address decisionmaking. 
NATO is becoming bigger and bigger, more and more unwieldy, and 
I think it's time to think about changing the decisionmaking 
rules away from consensus to a more flexible approach.
    On Russia, Georgia, and Ukraine, I think we are at a point 
in which we need to do as much as we can to anchor Russia in 
the post-cold-war settlement. And I fear that we aren't doing 
enough to include the Russians as we did in 1815 when the 
Napoleonic Wars ended and France was brought in. In 1945, a 
defeated Germany was brought in. I think today we need to work 
as hard as we can to make sure that Russia is somehow anchored 
in the Euro-Atlantic community. How we do that is less 
important than that we start a concrete work plan.
    And so, I think OSCE, working with the Collective Security 
Treaty Organization, the NATO-Russia Council, and concrete 
cooperation on issues like arms control--these are the best 
ways to advance that agenda.
    And on Georgia and Ukraine, I think our policy is where it 
should be. The door is open, but let's move slowly while we try 
to get the relationship with Russia right.
    Finally, I think, on Afghanistan, it is great news that 
NATO is there. But I take away some sobering lessons about the 
degree to which NATO can be turned into a global alliance. I 
think one of the stories of NATO in Afghanistan is how 
difficult it has been to get unity of command, to get rid of 
national caveats. And moving forward, I would therefore be 
reluctant to see us try to turn NATO into something it's not. 
Instead, I would focus more on getting NATO to do better what 
it already does well, and that is lock in democracy and 
security in Europe.
    Thank you.
    [The prepared statement of Dr. Kupchan follows:]

  Prepared Statement of Charles A. Kupchan, Professor of International
 Affairs at Georgetown University and Senior Fellow at the Council on 
                   Foreign Relations, Washington, DC

    NATO has undergone a remarkable transformation since the end of the 
cold war. Not only has the alliance persisted despite the collapse of 
the Soviet Union, but it has redefined its core purposes, extending 
democracy and stability into Central Europe, bringing peace to the 
Balkans, playing a major role in the effort to stabilize Afghanistan, 
and building a host of strategic partnerships in the Black Sea and 
Mediterranean regions. NATO has also demonstrated that it remains the 
primary institutional pillar of the West, consolidating the Atlantic 
democracies as a meaningful community of common interests and values. 
The durability of the alliance is testimony to the fact that North 
America and Europe remain each other's best partners.
    At the same time, making the most of the Atlantic partnership 
requires recognizing that in a world of diverse threats, NATO no longer 
enjoys the unity and solidarity that it did during the cold war. 
Alliance members have diverging views of the nature and urgency of the 
operation in Afghanistan and have varying levels of capability to 
contribute to the mission, leading to an inequitable sharing of 
burdens. Disagreements have emerged across the Atlantic and within 
Europe on numerous other issues, including the future of NATO 
enlargement, alliance relations with Russia, and an appropriate 
division of labor between NATO and the European Union (EU).
    Such differences are hardly fleeting. Rather, they reflect 
alternative strategic visions for the alliance: The United States tends 
to see NATO as a tool for addressing global security challenges; 
members in Western Europe envisage NATO as a vehicle for tethering the 
United States to Europe and stabilizing and expanding Europe in step 
with the EU; Central European members focus more on the need to hedge 
against the potential resurgence of a threat from Russia.\1\ The 
alliance will not be able to overcome these deep-seated differences. 
Instead, members will need to learn how to tolerate them and strike 
reasonable compromises if NATO is to remain effective in the absence of 
a clear strategic consensus.
---------------------------------------------------------------------------
    \1\ For discussion of the alternative strategic visions that have 
emerged among NATO members, see Timo Noetzel and Benjamin Schreer, 
``Does a multi-tier NATO Matter? The Atlantic alliance and the process 
of strategic change,'' International Affairs, vol. 85, no. 2 (2009), 
pp. 211-226.
---------------------------------------------------------------------------
    The global nature of threats such as terrorism and nuclear 
proliferation begs the question of NATO's geographic and functional 
scope. In addition, the West, which has been the strategic pivot of 
global affairs since World War II, is confronted with the challenge of 
adapting the international system to the rise of China, India, and 
other powers. In this respect, the Atlantic democracies no longer have 
the luxury of focusing primarily on their own affairs, but must also 
address the role that the West should play in shaping the international 
order that comes next.
    In the analysis that follows, I lay out a risk-averse approach to 
NATO's future--one based upon the supposition that it is preferable to 
conserve NATO's integrity by keeping its will and resources in balance 
with its commitments, rather than to tax the alliance with 
responsibilities that risk compromising its credibility and coherence. 
NATO should continue to anchor the West while the Atlantic democracies 
address a global agenda, but efforts to turn NATO into a global 
alliance risk stretching it past the breaking point. Instead, NATO 
should serve as a model for and assist with defense cooperation and 
integration in other regions, meanwhile putting its focus on seeing 
through its mission in Afghanistan and addressing unfinished business 
in the broader European theater: improving its operational capability, 
in particular by strengthening its European pillar; locking in peace in 
the Balkans; deepening ties to partner countries to the south and east; 
building a more cooperative relationship with Russia; and addressing 
unconventional threats such as cyber attack, nuclear proliferation, and 
terrorism. I begin by discussing NATO's core purposes, then turn to 
NATO's role in Europe and its responsibilities beyond the Euro-Atlantic 
area, and end with a brief reflection on Congress and the alliance.
                           defining purposes
    Anchoring the West. During its first 40 years, NATO's main purpose 
was to integrate and defend the West. During the past 20 years, it has 
focused primarily on expanding the West and, following the attacks of 
September 11, contributing to the mission in Afghanistan. Looking 
forward, NATO's defining purpose should be to anchor the West while 
simultaneously serving to coordinate its political and military 
engagement within and beyond the Euro-Atlantic area. It is essential to 
view NATO as much more than a military toolkit: it is perhaps the 
primary institution responsible for preserving the coherence and 
effectiveness of the West as a political community. That function, 
back-stopped by transatlantic cooperation in a multiplicity of other 
forms, will grow increasingly important over time as global power 
shifts away from the Atlantic democracies, and Western-dominated bodies 
such as the G8 turn into far more diverse bodies such as the G20.
    Collective Defense. In the aftermath of the war in Georgia and the 
Obama administration's outreach to Russia and alteration of plans for 
missile defense, Central European members of NATO have grown uneasy 
about the alliance's commitment to collective defense and what they 
perceive as insufficient concern in Western Europe and the United 
States about Russian intentions. In this respect, NATO should bolster 
the integrity of Article 5 and reassure Central Europeans about its 
commitment to collective defense. The alliance can do so through 
planning, exercises, and military modernization and reform (including 
missile defense). Shortcomings in the NATO operation in Afghanistan 
(see below) further underscore the need to enhance NATO's operational 
capability. At the same time, the remilitarization of NATO's eastern 
frontier would be both unnecessary and needlessly provocative in light 
of the extremely low probability of overt Russian aggression against 
NATO territory. Looking forward, NATO should also pay increased 
attention to unconventional threats to its members, including cyber 
attack, terrorism, and nuclear proliferation. Energy security warrants 
a place on NATO's agenda, although that issue should be addressed 
primarily through EU efforts to formulate a coherent energy policy and 
through EU-U.S. consultation.
    Complete the Pacification of Europe. NATO, working in tandem with 
the EU, needs to consolidate peace in the Balkans and work to extend 
stability to Ukraine, Georgia, and other states on Russia's periphery. 
It should meanwhile pursue engagement with Russia and, should Moscow 
prove to be a willing partner, work toward drawing Russia as well as 
its neighbors into the Euro-Atlantic community.
    Engage Beyond Europe, But With Due Modesty. Many of the most 
pressing international challenges of the day arise from outside the 
Euro-Atlantic area. NATO has a role to play in meeting some of these 
challenges, but seeking to globalize NATO would saddle it with 
unsustainable burdens and insurmountable political divides. The mission 
in Afghanistan, although a top priority for NATO, continues to reveal 
the difficulties entailed in sustaining alliance solidarity in out-of-
area missions. Accordingly, even as it stays the course in Afghanistan, 
NATO should view additional missions outside the Euro-Atlantic area 
with caution, and in general limit the scope of its global engagement 
to training and assistance, serving as an exemplar, and helping other 
regional bodies help themselves.
                             nato in europe
    NATO remains the primary institution of the Euro-Atlantic security 
order. As it seeks to broaden and consolidate the Euro-Atlantic 
community, NATO should seek to strengthen its ties both to the EU and 
to those countries in Europe's east which have yet to be formally 
included in either NATO or the EU. A more capable and more collective 
EU and better linkages between NATO and the EU are needed to help 
rebalance the Atlantic partnership. The Atlantic link will be well 
served if the EU enhances its ability to share burdens and be a more 
equal partner of the United States. Meanwhile, by reaching out to 
Russia and its neighbors, NATO has the opportunity to spread its 
pacifying and integrating effects further eastward and southward.
    The European Pillar. With the United States bearing the burden of 
two costly wars in Iraq and Afghanistan and a wide range of commitments 
elsewhere, strengthening the EU pillar within the alliance is of 
growing urgency. Unless EU members do a better job of aggregating their 
political will and resources, Europe risks becoming of declining 
strategic relevance to the United States. On the other hand, if EU 
members allocate their defense spending more effectively and take 
advantage of the institutional changes foreseen in the Lisbon treaty to 
forge a more common security policy and assume greater international 
responsibilities, NATO and the Atlantic link will be primary 
beneficiaries. France's integration into NATO's military structure 
advances the prospect for better cooperation between the EU and NATO, 
helping the two organizations reinforce, rather than compete, with each 
other. Overcoming Turkey's discomfort with European defense--perhaps by 
including it in EU deliberations and planning on security matters--
would also advance the cause of strengthening the EU pillar. Building a 
more capable EU is primarily up to Europeans: they must increase their 
deployable military and civilian assets and ensure that the more 
capable institutions envisaged in the Lisbon treaty are not offset by 
the renationalization of European politics. But the United States can 
help by making clear its unequivocal support for a strong Europe and 
engaging the EU at the collective level as its institutions mature.
    Decisionmaking. In addition to strengthening its European pillar, 
NATO must also address potential changes to its decisionmaking 
apparatus to ensure its effectiveness. In the absence of the unifying 
threat posed by the Soviet Union, NATO solidarity is more difficult to 
sustain--as made clear by the inequitable division of labor in 
Afghanistan. To ensure that divergent perspectives do not become a 
source of paralysis, the alliance should consider moving away from a 
consensus-based approach to taking decisions. Options such as the 
formation of coalitions of the willing and the use of constructive 
abstentions (members opt out of rather than block joint action) are 
worth exploring to provide NATO greater flexibility in decisionmaking.
    Russia. As the new Secretary General of NATO recently affirmed, it 
is time for the alliance to embark on a ``new beginning'' with Russia. 
This objective is in line with the Obama administration's call for 
``resetting'' relations between Washington and Moscow. Russia has 
indicated a willingness to explore these potential openings. President 
Medvedev has called for a ``new European security architecture''--
although it is not yet clear what the Kremlin has in mind. More 
importantly, it remains to be seen whether Russia pursues policies 
toward Iran, Georgia, arms control, energy, and other issues that would 
indicate its willingness to be a reliable partner of the West.
    If such cooperation from Moscow is indeed forthcoming, then the 
United States, NATO, and the EU should work together to anchor Russia 
in the Euro-Atlantic community. What form such inclusion can and should 
take needs to be determined as the options become clearer. At this 
point, efforts should focus on making more of the NATO-Russia Council 
and the Organization for Security and Cooperation in Europe (OSCE), 
engaging Moscow's call to explore potential links between NATO and the 
Russian-led Collective Security Treaty Organization, and advancing 
concrete cooperation on issues such as Afghanistan, arms control, 
missile defense, and maritime security.
    Ukraine and Georgia. As the United States and its NATO partners 
reach out to Russia, they should make clear that a ``new beginning'' 
depends on Russia's willingness to respect the independence and 
autonomy of Ukraine, Georgia, and other countries on Russia's 
periphery. Moscow may well rebuff the West's overtures and instead opt 
for a more distant relationship. But should confrontation prevail, it 
should be the consequence of Moscow's missteps, not because the members 
of NATO failed to do their best to include Russia in Europe's post-
cold-war settlement. In this respect, even as NATO's door remains open 
to Georgia and Ukraine, the question of membership is best dealt with 
later rather than sooner. Neither country is ready for entry and many 
European leaders have reservations about moving forward on membership. 
Moreover, by focusing on concrete work plans rather than formal 
membership, the alliance can advance its links with both countries 
while simultaneously buying time for its relationship with Russia to 
deepen. The EU also has an important role to play in the broader Black 
Sea area, especially if NATO moves cautiously on the pace and scope of 
its engagement. As a strategy of anchoring Russia in the Euro-Atlantic 
space advances, then dealing with Ukrainian and Georgian membership in 
NATO becomes a much less complicated and volatile issue.
                           nato beyond europe
    Afghanistan. Afghanistan will remain at the top of NATO's agenda 
for as long as its mission there continues. There is much good news 
about the NATO operation, including the fact that the alliance invoked 
Article 5 after the United States was attacked and proceeded to 
contribute to a multinational coalition that consists of 41 countries 
and some 35,000 non-American troops. Nonetheless, the mission exposes 
the imposing obstacles to NATO engagement in areas far from alliance 
territory. Public skepticism about the mission has constrained the size 
and operational scope of many national contingents--even while the 
Canadians, British, Danes, Dutch, and Romanians have taken on more 
demanding missions. Unity of command has proved elusive, as has 
coordination between NATO and EU efforts. At this point in the mission, 
it would be unrealistic to expect major new troop contributions from 
Europe, which is more likely to focus additional efforts on training 
Afghan soldiers and police and on civilian assistance--tasks which 
promise to take on increasing importance as U.S. and NATO strategy 
evolve. Moreover, it will be no easy task maintaining the NATO 
coalition at current levels, with domestic pressure mounting in several 
Member States for the winding down of their national contributions.
    In drawing lessons from its shortcomings in Afghanistan, the 
alliance should concentrate on improving operational effectiveness. 
Providing for common funding of alliance missions, doing away with 
national caveats, setting requirements for spending on modernization 
and interoperability, improving unity of command--these are the types 
of reforms that can enhance NATO's ability to conduct coalition warfare 
and improve its performance on the battlefield.
    A Global NATO? NATO's experience in Afghanistan also provides good 
cause for being soberly cautious about the alliance's ability to become 
an all-purpose alliance on a global basis. To be sure, fashioning 
useful partnerships with willing non-members such as Australia, as NATO 
has done in Afghanistan, makes good sense. But in most regions of the 
world beyond the Euro-Atlantic area, constraints on the political will 
and capabilities of Member States mean that the alliance will usually 
have to limit its engagement to providing training and assistance and 
helping defense organizations elsewhere do for their own regions what 
NATO has done for Europe. In this respect, it would make sense for NATO 
to enhance significantly the manpower and technical skills that would 
enable it to contribute more effectively to training programs and 
civilian assistance.
    Preventing NATO's overstretch and husbanding its political will and 
solidarity is especially important as the West heads toward a global 
landscape in which it enjoys less material--and perhaps ideological--
primacy. The Atlantic democracies should make the most of their common 
interests and values as they work to adjust the international system to 
the rise of China, India, Brazil, and other emerging powers. Even as 
NATO completes its mission in Afghanistan, reaches out to Russia, and 
consolidates the pacification of southeastern Europe, it must continue 
to serve as the institutional and political anchor of the West amid a 
changing world.
                bipartisanship and the western alliance
    During the second half of the 20th century, American engagement 
abroad rested on solid bipartisan foundations. Faced with the strategic 
imperatives of defeating Soviet expansionism and communism, legislators 
generally heeded Senator Arthur Vandenberg's call in 1950 ``to unite 
our official voice at the water's edge.'' Since the end of the cold 
war, however, the domestic politics of foreign policy have become more 
fractious. Bipartisanship has eroded, regularly exposing the conduct of 
statecraft to deep political cleavages.
    The Western alliance and America's link to Europe constitute a 
notable exception. The time-tested value of the alliance, the fact that 
it has withstood countless strains, and the thriving transatlantic 
commerce that has grown alongside strategic partnership have won NATO 
well-deserved support across the political spectrum. Not only has NATO 
earned the indefinite continuation of such bipartisan support, but 
perhaps the political lessons learned from NATO's continuing successes 
can help rebuild the bipartisan foundations of U.S. foreign policy in 
the years ahead.

    Senator Shaheen. Thank you all very much.
    General Craddock, you talked about the importance of 
getting buy-in from military commanders, on changes to NATO. 
More and more it seems to me that the threat is not just 
conventional military might, but it's coming from terrorism--
certainly that's what we're fighting in Afghanistan--and that 
one significant element in being effective against terrorism is 
getting the right intelligence and being able to share that 
intelligence in a way that allows us to go after the 
terrorists. How comfortable are you that intelligence-sharing 
is where it should be among the NATO nations? And is there more 
that needs to be done on that? And should the Strategic Concept 
address that specifically in other ways than have been done in 
the past?
    General Craddock. Thank you, Senator.
    The short answer to your question is intelligence-sharing 
is still inadequate in the alliance; more must be done. Within 
the past few years, we have established in NATO an intelligence 
component. It's colocated in the United Kingdom, along with a 
United States intelligence organization. It is resourced by 
nations, but the United States is the lead framework nation. It 
is not a part of the command structure.
    I think that needs to be developed further. The output, the 
analysis, from that goes to commanders in the field--in the 
field--where we find the problem.
    We still have too many national restrictions in the sharing 
of intelligence. We've been able to, in Afghanistan, develop 
categories of intelligence that would enable us to share with 
partner nations who are participating there, as well as 
optimize what can be shared from national sources with alliance 
members.
    So, in the operational theater, there's still more to do, 
but we have come a long way.
    Second, I think the Strategic Concept should address it in 
a framework context and along with other aspects, not just 
intelligence, of how, in operations, nations must subordinate 
their forces and functions to the unity-of-command effort. That 
is where the addressment needs to be, as opposed to the ability 
to address each specific item, which, I think, then, quite 
frankly, will get bogged down in the consensus-approval 
process.
    Senator Shaheen. So, when you were talking about opting in 
versus opting out, is that a place where that might be done? 
And how do you see that being structured?
    General Craddock. Indeed, it could be there. I think that 
what we have to do also is recognize that, through no malintent 
or malfeasance, the command structure in Afghanistan, the 
arrangement of forces--national forces--is something that, upon 
scrutiny and analysis, we would never do again, knowingly. But, 
we did that in order to get nations to go, to buy in, to 
arrange themselves in a short period of time. And those 
decisions, individually, were fine. Collectively now, over 
time, as the environment has changed, they have led to 
constraints and restraints and inflexibility for the commanders 
on the ground. And I think we also must address that. When you 
commit your force, you provide it under operational control, 
and if you have a caveat, then I think NATO has a reject clause 
in that operation.
    Senator Shaheen. Thank you.
    Ambassador Volker, you talked about NATO, inside and 
outside. Most of our conversation today has been on the outside 
efforts of NATO. Can you briefly say whether you think there 
are any institutional reforms inside NATO that need to be 
addressed as part of the Strategic Concept, recognizing that I 
only have 42 seconds left?
    Ambassador Volker. Yes. Substantial. [Laughter.]
    Senator Shaheen. So, we'd be happy to take some of this for 
the record.
    Ambassador Volker. Yes, I'd be happy to.

    [Editor's note.--The information to the question above is 
covered in a question from Senator Kerry to Ambassador Volker 
on page 57 in the Additional Material Submitted for the 
Record.]

    Ambassador Volker. One quick word, though. I don't think 
the issue is decisionmaking by consensus. We need everyone's 
buy-in when they make a decision, so they've got to be part of 
the decision. What we need is political will to implement and 
execute, and I think we need to focus the NAC and the 
decisionmaking of the alliance upward strategically, and leave 
the execution to the Secretary General and to our military 
commanders.
    Senator Shaheen. Thank you.
    Senator Lugar.
    Senator Lugar. Well, thank you, Madam Chairman.
    I just appreciate each of the three statements. I thought 
they were really remarkable, and I will--we'll all review them 
carefully--that is, the full statements, in addition to the 
precise answer that you gave.
    I'd just like to ask you, Mr. Volker--and this may sound 
very simplistic--but, as the nations go through the criteria 
you've suggested, could there be a decision on the part of some 
of the members to opt out of the alliance? In other words, as 
the criteria become very difficult politically or economically 
for them, could some say that, ``By and large, you just can't 
count on us. Our public support and our country would not 
support these problems which impinge upon our sovereignty of 
our decisionmaking in some way?'' Most countries probably don't 
act in such decisive, abrupt ways as that, but, nevertheless, 
the debate internally may commence which may lead an 
undermining of enthusiasm for the alliance. What thoughts do 
you have, even as you impose these stricter criteria?
    Ambassador Volker. I think it's a very fair question to 
raise, because we see those kinds of debates in allied 
countries today.
    I take it back to first principals again, which is why I 
even mentioned some fundamentals in my statement, because I 
think if we allow that to happen, as leaders on either side of 
the Atlantic, we're digging our own graves. We need to be 
together to deal with the type of world that we live in. If we 
don't, we're doomed to be failures at this.
    So, while that would be a temptation that would exist, I 
would think, in some European countries--it may even exist in 
this country--I think it would be a very dangerous road to go 
down to see that. Rather, I think we--part of the political 
compact of our alliance is that we owe it to each other to roll 
up our sleeves and figure out how, rather than just walking 
away and saying, ``Well, I don't want to.''
    Senator Lugar. What would be the reaction, leaving aside 
our NATO allies, of Russia to these new criteria, as Russians 
take a look at that discussion? Now, granted, each of you, in a 
way, have said, ``Well, we ought to be continuing a more 
intense, comprehensive dialogue with the Russians while we're 
doing this strategic work ourselves.'' But, nevertheless, they 
peer into this conversation. And what is their reaction likely 
to be?
    Ambassador Volker. That's a--it's a very interesting 
question. And Madeleine Albright, when she testified, addressed 
that to some degree.
    We have to start by remembering that Russia is not a 
democratic country today. It is talked--it has talked about 
``spheres of influence'' in neighboring countries. So, we have 
to be--we have to know what kind of Russia we're talking about 
when we're talking about the way Russia reacts.
    I would say that, as many have, we need to be inclusive of 
Russia in our thinking. We need to think of Russia as a 
European country. We need to want Russia to be part of a Euro-
Atlantic community. But, simultaneous with that, Russia, 
therefore, would take on obligations, like the rest of us, to 
adhere to democratic values and good neighborly relations. And 
we need to hold those standards very high. And as an alliance, 
we need to be prudent about the way we deal with a country that 
doesn't share those values today.
    Senator Lugar. Madam Chairman, in view of the fact that the 
vote has been underway for a bit, I will yield back whatever 
time that I have.
    And I thank, again, the witnesses very much.
    Senator Shaheen. Thank you very much, Mr. Chairman.
    I would--we are very short of time, but I would like to 
just follow up on the one question that you asked, with Dr. 
Kupchan, about Russia, because, recognizing your comments about 
further engaging Russia, having sat next to the Foreign 
Minister of Poland and hearing, in very great detail, his 
concern about United States further engaging Russia, how do we 
do that in a way that doesn't threaten the other countries in 
Eastern Europe that, as Ambassador Volker, in Russia, has said, 
they consider part of their sphere of influence? So, how do you 
balance that need to further engage without creating other 
issues within NATO?
    Dr. Kupchan. It's a tough act, and I think the United 
States has to work on two fronts simultaneously. One, is to 
reassure the Central Europeans about their status in the 
alliance and the integrity of Article 5. And I think doing 
things like Vice President Biden's trip, deploying Patriots, 
doing defense planning, are the types of things that need to be 
done on that front.
    At the same time, I think that we have to realize that 
there are differences in threat perceptions within the 
alliance, and that we should do what we can to engage Russia--
with our eyes wide open, making it clear to the Russians if 
they cross certain red lines such engagement would end, and 
these lines would include threatening the autonomy or the 
independence of countries like Ukraine and Georgia.
    But, I think, while we have the opportunity to do so, we 
should have an open-door policy to Russia. Not open-door in the 
sense that, ``We want you to be members.'' Maybe, yes, one day. 
But, for now, let's look at the concrete ways that the United 
States and Russia, that NATO and Russia, can work together. And 
it may well be that, 2 years down the road, once that 
relationship has been repaired, then the whole question of the 
defense of Central Europe, whether or not Ukraine and Georgia 
are in NATO, those issues become much, much easier to solve.
    Senator Shaheen. Thank you.
    Thank you all very much for appearing here. We apologize 
that we've gotten cut a little short due to votes. That happens 
often around here, as you know.
    The record will stay open until Monday for members to 
submit their questions.
    Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Secretary Madeleine Albright to Questions Submitted by 
                         Senator John F. Kerry

    Question. At the 2009 Strasbourg/Kehl NATO summit, the 
participatory heads of state and government at the North Atlantic 
Council meeting on April 4, 2009, acknowledged the progress of the 
Government of Bosnia and Herzegovina on ``cooperation with NATO, 
including through implementation of its current IPAP, and the country's 
expressed intention to apply for MAP at an appropriate time.'' The 
declaration also urged ``Bosnia and Herzegovina's political leaders to 
take further genuine steps to strengthen state-level institutions and 
reinvigorate the reform process to advance the country's Euro-Atlantic 
aspirations.''
    The Summit Declaration also welcomed Montenegro's ``successful and 
active implementation of its current Individual Partnership Action Plan 
(IPAP) with NATO'' and expressed encouragement regarding ``the reforms 
it has made in a number of areas that are essential to its Euro-
Atlantic integration and also by its contributions to cooperation and 
security in the region. . . . The Council in permanent session is 
keeping Montenegro's progress under active review and will respond 
early to its request to participate in the Membership Action Plan 
(MAP), on its own merits.''

  <bullet> Can Bosnia and Herzegovina and Montenegro contribute to 
        NATO's security rather than act as net consumers of it? As the 
        alliance considers enlargement, what specific capabilities 
        could these two countries add to NATO? How, if at all, do 
        Bosnia and Herzegovina and Montenegro currently contribute to 
        NATO?

    Answer. The question of admitting specific new members to NATO is 
one for alliance members to decide. The Group of Experts may discuss 
more generally the mechanisms for interacting with prospective members 
and partners, but at this stage of the process, no recommendations have 
been formulated.

    Question. Do you believe that Bosnia and Herzegovina and Montenegro 
are essential elements of U.S. and European security? Does Russia 
object to Bosnia and Herzegovina and Montenegro's further integration 
into Euro-Atlantic institutions in the same way it perceived Georgia's 
relationship with the West? Should this matter? How, if at all, should 
NATO address such concerns?

    Answer. As I said in my testimony, I believe that NATO's doors 
should remain open to qualified candidates. Decisions about membership 
are for the alliance alone to make. Those decisions should be made on 
the basis of objective criteria related to the contributions and 
obligations the admission of a new member entails. No country outside 
the alliance should be permitted to exert influence over these internal 
judgments. NATO membership is not a status symbol or a bargaining chip; 
it is an agreement between old members and prospective new ones to make 
the alliance stronger and more effective for purposes that all can 
support.

    Question. NATO has already assisted Bosnia and Herzegovina and 
Montenegro in reforms to the countries' military and ministry of 
defense, allowing further participation with the alliance through 
programs such as Partnership for Peace.

  <bullet> Based on your experience as Secretary of State, could NATO 
        help reform Bosnia and Herzegovina's political and economic 
        situation, as well as help calm ethnic tensions? In what ways 
        has the alliance already helped resolve such issues in Central 
        and Eastern Europe and elsewhere?

    Answer. In my experience, the prospect of NATO membership and/or 
partnership can provide an incentive for countries to resolve internal 
problems, especially those stemming from historic ethnic rivalries or a 
lack of effective democratic institutions. NATO members possess a 
wealth of expertise about how to address such difficulties and have 
helped to spur progress in Central Europe, the Balkans, and elsewhere.

    Question. As NATO's relations with the EU evolve, how can the two 
organizations cooperate and complement each other, especially on 21st-
century challenges, such as energy and cyber security, post-conflict 
reconstruction and global climate change? How can NATO and the EU 
effectively delineate shared responsibilities and resources on issues 
like these that combine civilian and military capabilities? How are you 
coordinating and consulting with the EU in formulating the new 
Strategic Concept?

    Answer. The issue of coordination between NATO and the EU (and 
between NATO and international organizations more generally) is an 
important one and central to the deliberations of the Experts Group. 
Accordingly, the Experts Group will be holding formal meetings with the 
EU, among others, to share perspectives and ideas. I should point out 
that there has been an extensive history of dialogue between NATO and 
the EU, and that the two organizations continue to work together as 
partners in Kosovo.

    Question. Do you think NATO should make energy security an Article 
Five commitment? If, so, how?

    Answer. Energy security is one of many topics that will be 
discussed by the Experts Group and its interlocutors as the process of 
developing a new NATO Strategic Concept goes forward. Similarly, the 
interpretation and application of Article V in a changing world 
environment will also be a subject of great concern.

    Question. How should the new Strategic Concept address the issue of 
NATO reform? More broadly, what reforms should be made to NATO's 
operational and political decisionmaking? How, if at all, should the 
position of NATO Secretary General evolve?

    Answer. There is widespread interest on the part of the Secretary 
General and members of the Experts Group in the issue of NATO 
efficiency and internal reform. The Experts Group is currently in the 
``listening phase'' of its deliberations and will be soliciting ideas 
on the subject from a wide range of sources. The Group is scheduled to 
present its conclusions and recommendations to the Secretary General by 
the beginning of May 2010.

    Question. How would you describe the current relationship between 
NATO and Russia? NATO Secretary General Rasmussen has spoken of 
building a more constructive relationship. What are the opportunities 
and limits of that relationship?

    Answer. Russia and NATO have important interests in common. These 
include support for stability in Central Asia, countering terrorism and 
piracy, and curbing the spread of weapons of mass destruction.
    Despite these shared interests, there are some in Moscow who would 
like Washington to choose between loyalty to our NATO allies and 
cooperation with Russia--as if these two options were mutually 
exclusive. In fact, the United States can and should combine strategic 
reassurance for allies and realistic engagement with Moscow. When I was 
Secretary of State, our policy was that, on matters of European 
security, Russia was entitled to a voice but not a veto; both halves of 
that equation remain valid.
                                 ______
                                 

        Responses of GEN John Craddock to Questions Submitted by
                         Senator John F. Kerry

    Question. Much has been said about the necessity of training Afghan 
National Army and Afghan police forces. Training would appear to be one 
area where NATO countries can make substantial contributions without 
alarming their publics at home or violating restrictions on use of 
force. However, there continues to be an apparent lack of resources on 
this front. The EU had pledged about 400 trainers for its police 
training mission last year, yet there are only about 230 on hand. What 
are the chances of persuading the EU and NATO to dramatically increase 
their commitment to this vital task?

    Answer. While I do not believe both EU and NATO nations (21 Euro 
nations are in both the EU and NATO) will ante up what we believe they 
are capable of, I do believe with new NATO leadership in Brussels and a 
greater focus by European nations on the soft components of effective 
counterinsurgency strategies the likelihood is better than in the past. 
There are many civil components for which help is needed in Afghanistan 
that are resident in EU and NATO nations. U.S. leadership will be 
essential in creating a ``can't say no'' environment for these nations 
to opt in. But for this to happen the United States will have to 
develop a framework which will permit these nations to buy into with 
resources and capabilities.

    Question. In your October 22, 2009, testimony, you stated that 
``from the military perspective on enlargement--we must maintain the 
rigorous standards already established to ensure that new members are 
providers of alliance security--not consumers of security.''
    At the 2009 Strasbourg/Kehl NATO summit, the participatory heads of 
state and government at the North Atlantic Council meeting on April 4, 
2009, acknowledged the progress of the Government of Bosnia and 
Herzegovina on ``cooperation with NATO, including through 
implementation of its current IPAP, and the country's expressed 
intention to apply for MAP at an appropriate time.'' The declaration 
also urged ``Bosnia and Herzegovina's political leaders to take further 
genuine steps to strengthen state-level institutions and reinvigorate 
the reform process to advance the country's Euro-Atlantic 
aspirations.''
    The Summit Declaration also welcomed Montenegro's ``successful and 
active implementation of its current Individual Partnership Action Plan 
(IPAP) with NATO'' and expressed encouragement regarding ``the reforms 
it has made in a number of areas that are essential to its Euro-
Atlantic integration and also by its contributions to cooperation and 
security in the region. . . . The Council in permanent session is 
keeping Montenegro's progress under active review and will respond 
early to its request to participate in the Membership Action Plan 
(MAP), on its own merits.''

  <bullet> Can Bosnia and Herzegovina and Montenegro contribute to 
        NATO's security rather than act as net consumers of it? As the 
        alliance considers enlargement, what specific capabilities 
        could these two countries add to NATO? How, if at all, do 
        Bosnia and Herzegovina and Montenegro currently contribute to 
        NATO?

    Answer. I fully believe that after the MAP process runs its course 
both Bosnia and Herzegovina and Montenegro can contribute to NATO 
security in a meaningful way. The MAP process is an orderly, rigorous 
process to develop democratic security institutions through structure 
and practice. This process takes time and focus from appropriate NATO 
political and military authorities. In the future, the development of 
niche capabilities needed by NATO--likely small, technical 
capabilities--such as movement control, deployable surgical capability, 
air-traffic control, etc.--would enhance both alliance and national 
military capabilities. Currently Bosnia and Herzegovina contribute two 
personnel to ISAF. Montenegro is preparing to deploy a platoon of 
infantry to ISAF.

    Question. Do you believe that Bosnia and Herzegovina are essential 
elements of U.S. and European security? Does Russia object to Bosnia 
and Herzegovina and Montenegro's further integration into Euro-Atlantic 
institutions in the same way it perceived Georgia's relationship with 
the West? Should this matter? How, if at all, should NATO address such 
concerns?

    Answer. I am of the opinion that stability in Bosnia and 
Herzegovina is an essential element of European security given the 
history of this region. As for the United States, not so much, but 
rather as how the pursuit of stability and security in this region 
impacts relationships with the Russian Federation. During my tenure as 
SACEUR I did not experience the Russian Federation approaching Bosnia 
and Herzegovina in any context like that of Georgia or Ukraine. NATO 
has held for some time that while Russia may be consulted with regard 
to NATO enlargement plans, they do not have a veto over those plans. 
Issues in this context can be discussed by NATO in the NATO-Russia 
Council forum.

    Question. NATO has already assisted Bosnia and Herzegovina and 
Montenegro in reforms to the countries' military and Ministry of 
Defense, allowing further participation with the alliance through 
programs such as Partnership for Peace.

  <bullet> Based on your experience, could NATO help reform Bosnia and 
        Herzegovina's political and economic situation, as well as help 
        calm ethnic tension? In what ways has the alliance already 
        helped resolve such issues in Central and Eastern Europe and 
        elsewhere?

    Answer. NATO's MAP program addresses political institutions as well 
and security and military institutions, so yes, a NATO MAP for Bosnia 
and Herzegovina could further the political and economic institutions. 
However, there are other organizations that can do that better than 
NATO--OSCE and the EU are but two as an example--for judicial, 
political, and economic institutions. NATO should offer its good 
offices to engage these other regional and functional organizations.

    Question. In your October 22, 2009, testimony, you stated that the 
``Strategic Concept must address the developments--by both NATO 
collectively and nations individually--of capabilities specified as 
required in the strategy.''

  <bullet> How should the new Strategic Concept differ from the 1999 
        Strategic Concept regarding its focus on capabilities? What is 
        NATO's formal process for developing capabilities and shifting 
        transformation to match the new Strategic Concept? In your 
        estimation, how long does it take to reorient NATO capabilities 
        to align with a new Strategic Concept?

    Answer. I believe the next Strategic Concept must address the 
habitual tension between national interests and NATO force capability 
development. Budgets for security and defense needs are declining 
throughout the alliance. We can no longer describe the capabilities 
needed by NATO and see which of these that nation(s) may be willing to 
resource given that those nations need that capability also. This 
process is far too problematic, complex, and untimely to support the 
alliance's needs in any relevant way. And this situation is further 
aggravated by fast-paced technology changes that to date NATO has been 
unable to react to. The Strategic Concept must prescribe a framework 
for development of NATO capability packages and the ground rules for 
participation by nations. In my opinion, a strong, focused addressing 
of the NATO capability development process in the Strategic Concept 
will be essential to achieve reasonable progress by the alliance within 
the 5 years.

    Question. As NATO's relations with the EU evolve, how can the two 
organizations cooperate and complement each other, especially on 21st-
century challenges, such as energy and cyber security, post-conflict 
reconstruction and global climate change? How can NATO and the EU 
effectively delineate shared responsibilities and resources on issues 
like these that combine civilian and military capabilities? How is NATO 
coordinating and consulting with the EU in formulating the new 
Strategic Concept?

    Answer. I believe that in both the military and political 
components of each organization continuous and transparent dialog must 
be established concerning both current and potential missions. Such 
dialogue is essential to discover opportunities for shared or 
autonomous operations, shared capability development, focused, niche 
capability development, and reduction in research, development, and 
procurement costs. The NATO/EU military information-sharing is gaining 
momentum, but has yet to yield any big wins. Unfortunately, the 
political dimension of Cyprus and Turkey are such--that for NATO--we 
have been precluded from going further due to protests from a Member 
Nation of our failure to follow prescribed operating procedures between 
the two organizations--yet no agreements on operating procedures are 
extent to address these types of issues. NATO and EU political 
leadership must bring the problem nations to the table to work out 
arrangements which will enhance--not impede--coordination and 
cooperation.

    Question. Do you think NATO should make energy security an Article 
Five commitment?

    Answer. If in this context the term ``energy security'' means a 
denial of access based on contractual agreements that could lead to 
widespread suffering and potentially loss of life--yes.
                                 ______
                                 

     Responses of Ambassador Kurt Volker to Questions Submitted by
                         Senator John F. Kerry

    Question. Much has been said about the necessity of training Afghan 
National Army and Afghan police forces. Training would appear to be one 
area where NATO countries can make substantial contributions without 
alarming their publics at home or violating restrictions on use of 
force. However, there continues to be an apparent lack of resources on 
this front. The EU had pledged about 400 trainers for its police 
training mission last year, yet there are only about 230 on hand.

  <bullet> What are the chances of persuading the EU and NATO to 
        dramatically increase their commitment to this vital task?

    Answer. EU civilian police training has indeed been a 
disappointment. It is difficult for civilian police to operate without 
an adequate overall security environment, which the EU cannot provide 
on its own. The EU's ability to reach an agreement with NATO on the 
security, reinforcement, and potential evacuation of its personnel is 
limited by the institutional blockages between the EU and NATO. (These 
are caused mainly by EU-Turkey and Cyprus-Turkey issues.) I see little 
prospect for substantial new EU police training contributions.
    On the NATO side of the equation, allies agreed at the NATO summit 
in April 2009 to establish a NATO Training Mission-Afghanistan (NTM-A) 
aimed at bringing new European contributions into the ongoing police 
training effort. These new contributions were aimed at focusing in 
particular on the training of Afghan paramilitary police, using 
European gendarmerie capabilities such as those from France, Italy, and 
Turkey. My understanding is that this work is progressing, albeit 
slowly. Paramilitary police trainers integrated into the larger U.S. 
training mission should have the capacity to deploy throughout the 
country with Afghan units without encountering the institutional 
blockages that EU trainers face.
    Provided the initial augmentation of European paramilitary police 
trainers proves successful, there should indeed be potential for 
expanding this training capacity over time.

    Question. At the 2009 Strasbourg/Kehl NATO summit, the 
participatory heads of state and government at the North Atlantic 
Council meeting on April 4, 2009, acknowledged the progress of the 
Government of Bosnia and Herzegovina on ``cooperation with NATO, 
including through implementation of its current IPAP, and the country's 
expressed intention to apply for MAP at an appropriate time.'' The 
declaration also urged ``Bosnia and Herzegovina's political leaders to 
take further genuine steps to strengthen state-level institutions and 
reinvigorate the reform process to advance the country's Euro-Atlantic 
aspirations.''
    The Summit Declaration also welcomed Montenegro's ``successful and 
active implementation of its current Individual Partnership Action Plan 
(IPAP) with NATO'' and expressed encouragement regarding ``the reforms 
it has made in a number of areas that are essential to its Euro-
Atlantic integration and also by its contributions to cooperation and 
security in the region. . . . The Council in permanent session is 
keeping Montenegro's progress under active review and will respond 
early to its request to participate in the Membership Action Plan 
(MAP), on its own merits.''

  <bullet> Can Bosnia and Herzegovina and Montenegro contribute to 
        NATO's security rather than act as net consumers of it? As the 
        alliance considers enlargement, what specific capabilities 
        could these two countries add to NATO? How, if at all, do 
        Bosnia and Herzegovina and Montenegro currently contribute to 
        NATO?

    Answer. NATO's first operational missions were the air campaign to 
stop Bosnian Serbs from shelling Sarajevo, the IFOR and SFOR 
peacekeeping missions in Bosnia and Herzegovina, the Kosovo air 
campaign, and the ongoing KFOR operation in Kosovo. These missions were 
undertaken because of security and humanitarian challenges in the 
Balkans that threatened broader security in Europe.
    So in a very important respect, the most important contribution 
each of these countries can make to the security of the alliance, and 
Europe as a whole, is to be a source of stability, prosperity, 
interethnic integration and security--both within their own borders, 
and in contributing to a better Balkans region. In other words, to 
build a better neighborhood, so that NATO never has to intervene in the 
Balkans again. The prospect of NATO and EU membership can be an 
important incentive to getting countries to implement such reform.
    This notion of building a common security space for NATO members is 
entirely consistent with the original development of NATO. Countries 
such as Luxembourg or Iceland offered little direct military capacity, 
and even somewhat larger founding members, such as Belgium and 
Portugal, had relative small military capacities compared to those of 
the United States, the United Kingdom, or France. But by their joining 
together to form a larger shared security space, they made a vital 
contribution to the security of Europe as a whole.
    Montenegro, despite continuing difficulties in dealing with 
organized crime, corruption, and in protecting democratic rights, is 
making faster progress in these areas than Bosnia and Herzegovina, and 
in my view should be admitted to NATO's Membership Action Plan (MAP) at 
the December 2009 meeting of NATO Foreign Ministers.
    Montenegro has had particular success in seeing its ethnic Albanian 
minority integrated in society in ways that exceed what other Slav-
majority states in the Balkans have been able to achieve. Bosnia and 
Herzegovina has been regressing and is not, in my view, ready for MAP 
at this time.
    Even as non-NATO members, both countries have made modest 
contributions to NATO operations. Given their small size, one should 
not expect massive contributions. As they become more stable and 
prosperous, they have the opportunity to develop niche capabilities 
that can make valuable, albeit small, contributions to NATO operations. 
And as they eventually become NATO members, they should be able to make 
modest contributions to operations on a par with other small NATO 
allies.

    Question. Do you believe that Bosnia and Herzegovina are essential 
elements of U.S. and European security? Does Russia object to Bosnia 
and Herzegovina and Montenegro's further integration into Euro-Atlantic 
institutions in the same way it perceived Georgia's relationship with 
the West? Should this matter? How, if at all, should NATO address such 
concerns?

    Answer. I believe that long-term security and stability in the 
Balkans is a vital interest of the United States. I say this because if 
security breaks down again as it did in the 1990s, it directly affects 
the security of U.S. allies--to whom we are bound by treaty--and it is 
highly likely that the United States would again have to intervene 
militarily in the Balkans, together with European allies, to stop any 
fighting. It is far easier, far cheaper, and far better for the people 
of the region to prevent such a breakdown of security by building 
stable democratic, market economic structures, than to neglect the 
region until it is too late, and only a new intervention would put 
things right.
    As for Russia--I believe that Russian concerns about NATO 
enlargement are seriously misplaced and we should not allow our 
decisions on enlargement to be affected by such outdated, zero-sum 
thinking. Rather, we should demonstrate through our actions--as has 
been done in the cases of Poland, the Baltic States, and longstanding 
NATO members such as Norway and Turkey--that NATO membership does not 
pose any threat to Russia. Indeed, the presence of democratic, 
prosperous and stable nations on Russia's borders is in the interests 
of all of Europe, including Russia.
    NATO should also be open and transparent in its dealings with 
Russia. We should seek to build better understanding and confidence 
that NATO does not see Russia as an enemy and does not threaten Russia. 
And Russia should make similar efforts vis-a-vis NATO. We should seek 
to have NATO and Russia work together in tackling common security 
concerns. But we should not give Russia a veto over the rights of 
people living in sovereign, independent nations in Russia's (and 
Europe's) neighborhood.
    Indeed, one must think first about the interests of those very real 
people living in real countries, rather than the power political models 
of leaders in the Kremlin. NATO has not enlarged because it sought to 
grow bigger: Rather, NATO enlarged because people living in countries 
on the outside of NATO's borders were clamoring to get in. They have 
long historical memories of insecurity--and in some cases Soviet 
domination--and seek simply to be part of a common, defensive security 
community so their futures need not look like their past. NATO provides 
such a blanket of security, without threatening anyone. In doing so, it 
therefore also provides a space for democratic and economic 
development.
    Russia does indeed seem to draw a distinction between the potential 
NATO membership of States in the Balkans (which it could tolerate) and 
states that were part of the Soviet Union (Georgia and Ukraine). This 
distinction, however, is again based on an outmoded, enemy image of 
NATO as a threat, which has nothing to do with the NATO of today.

    Question. NATO has already assisted Bosnia and Herzegovina and 
Montenegro in reforms to the countries' military and Ministry of 
Defense, allowing further participation with the alliance through 
programs such as Partnership for Peace.

  <bullet> Based on your experience, could NATO help reform Bosnia and 
        Herzegovina's political and economic situation, as well as help 
        calm ethnic tensions? In what ways has the alliance already 
        helped resolve such issues in Central and Eastern Europe and 
        elsewhere?

    Answer. Yes, I believe that NATO can help to play a wider role in 
stimulating political and economic reform, and defusing ethnic tension. 
To do so, NATO should be even more clear than it has been thus far 
about the prospect of eventual NATO membership--as well as the 
conditions that must be fulfilled in order for a country to receive a 
membership invitation. NATO leaders can use visits and diplomatic and 
military engagement to push for continued reform. A visit by the North 
Atlantic Council to Sarajevo and Banja Luka, for example, could convey 
important messages of both commitment and expectations to the parties 
inside Bosnia and Herzegovina.
    That said, NATO is not alone in promoting such reform. The EU in 
particular also has an important role to play--both through offering 
the realistic prospect of EU membership, and through the day-to-day 
work of the EU High Representative in Bosnia and Herzegovina.
    In recent years, the perception has grown that both NATO and the EU 
have lost commitment behind their enlargement processes--and this has 
coincided with a rise in ethnic tension and lack of movement on reform. 
That negative cycle needs to be reversed through a positive commitment 
to further enlargement that demands positive movement on reform.

    Question. As NATO's relations with the EU evolve, how can the two 
organizations cooperate and complement each other, especially on 21st 
century challenges, such as energy and cyber security, post-conflict 
reconstruction and global climate change? How can NATO and the EU 
effectively delineate shared responsibilities and resources on issues 
like these that combine civilian and military capabilities? How is NATO 
coordinating and consulting with the EU in formulating the new 
Strategic Concept?

    Answer. NATO-EU cooperation remains hamstrung by EU-Turkey-Cyprus 
issues, by institutional bureaucratic and cultural differences, and by 
the preference of some European states to conduct strategic 
consultations through the European Union and not through NATO. As a 
result, formal NATO-EU coordination on the NATO Strategic Concept is 
severely circumscribed, although informal contacts take place, and some 
nations that are members of both organizations provide visibility in 
both directions.
    On substance, however, both NATO and the EU face complex challenges 
that span civil and military dimensions. Both organizations should have 
some measure of both civil and military capacities, though each will 
have its own relative strengths and weaknesses. Coordination and 
delineation of responsibilities should be done on a case-by-case basis, 
taking account of relative capacities brought to the table, and the 
security environment, in each particular case.
    Thus far, some NATO members have blocked NATO from adopting certain 
civil capacities. This needs to change. For example, NATO should 
increase its capacities in the area of police training, recruiting and 
staffing PRTs where civil and military skills are integrated, and in 
providing civilian, diplomatic engagement in areas where NATO is 
engaged operationally.
    NATO is also the only venue that brings the United States and 
European allies under a single roof for strategic consultations. While 
the U.S.-EU relationship should also serve as a vehicle for 
consultation, it has thus far not been effective in providing a vehicle 
for genuine consultation among all Member States and forging common 
action. In this respect, NATO's role as the principal forum for 
consultation among the allies, and the venue for decision on issues 
affecting the security and defense of its members under the Washington 
treaty, should be reinforced.

    Question. Do you think NATO should make energy security an Article 
Five commitment?

    Answer. Article 5 expresses a commitment of allies to consult and 
take appropriate actions in the event of an attack. This should not 
change. We should, however, recognize that the security environment in 
which we must carry out this commitment has changed dramatically over 
time.
    I believe that the shutoff of energy supplies to a NATO Member 
State--if done deliberately by an outside actor to influence or cause 
harm--should be considered an ``attack'' just as if it were a military 
attack. This does not mean that all energy issues, including supply 
disruptions, should be seen as Article 5 issues. But it does mean they 
have the potential to be Article 5 issues, depending on the 
circumstance.
    With that in mind, NATO should consult among allies at strategic 
levels, coordinate with outside entities, such as the EU, national 
energy ministries, and energy companies, and conduct prudent planning 
that in the event energy disruptions do rise to the level of an 
``attack'' and thus an Article 5 concern.

    Question. How should the new Strategic Concept address the issue of 
NATO reform? More broadly, what reforms should be made to NATO's 
operational and political decisionmaking? How, if at all, should the 
position of NATO Secretary General evolve?

    Answer. The new Strategic Concept should focus principally on 
defining what NATO is for in today's world. It should articulate a view 
on the security environment NATO faces in the early 21st century, and 
on NATO's role in providing for the security of its members within that 
environment.
    While there are substantial organization and reform issues that 
should be dealt with, I do not believe that the Strategic Concept is 
the right vehicle for tackling them. One exception could be a 
reaffirmation that policy decisions at NATO should be made by 
consensus. Such a statement would a broad framework within which 
reforms could be implemented by the Secretary General over time.
    That said, substantial reform needs to be enacted within NATO. Far 
too often, nations micromanage NATO action, blocking actions needed to 
implement agreed political decisions. Nations assert the need to reach 
consensus on microlevel decisions such as staffing, budgetary 
allocations, personnel assignments, or other aspects of implementing in 
military operations decisions already taken by the North Atlantic 
Council at various political levels.
    The work of the North Atlantic Council has increasingly become an 
``operations oversight'' board--with weekly (or even more frequent) 
briefings on NATO operations, extensive question and answer sessions, 
and little or no new decisionmaking at ambassadorial level.
    This should be fundamentally changed. The NAC should act at a 
strategic level, not a micromanagement level. It should act as a 
decisionmaking body giving strategic guidance to NATO civil and 
military authorities, based on clear guidance from capitals. Proposed 
decisions should be written up in advance, and meetings called 
principally to debate and agree final decisions.
    In addition, while reinforcing that broad policy decisions will 
only be made by consensus of the Member States, the role of the 
Secretary General should be strengthened to become more like that of a 
CEO. The Secretary General should have broad authority over the 
organization of the NATO Headquarters and staff, budgets, staffing 
assignments, and implementation of agreed policy decisions. He should 
be held accountable for results on implementing policy decisions--not 
micromanaged in how to carry out those decisions.
    The military structure of NATO should be radically streamlined. We 
have far too many headquarters and officer staff assigned to 
headquarters, with too few people in the field. We should reject the 
idea of a geographic footprint for the headquarters structure, and 
instead adopt of a model of overlapping geographic and functional 
responsibility.
    We should also look for ways to eliminate the practice of imposing 
political caveats on military forces assigned to NATO operations. 
Practical caveats--such as no night missions for troops that lack night 
vision and mobility--are appropriate. But political ones--such as 
geographic limitations on the deployment of forces within NATO's 
theater of operations--should be eliminated. Once nations make the 
decision to commit force to a NATO operation, they need to understand 
that military effectiveness and the political solidarity of the 
alliance depend upon a unified effort.
                                 ______
                                 

       Responses of Charles A. Kupchan to Questions Submitted by
                         Senator John F. Kerry

    Question. Much has been said about the necessity of training Afghan 
National Army and Afghan police forces. Training would appear to be one 
area where NATO countries can make substantial contributions without 
alarming their publics at home or violating restrictions on use of 
force. However, there continues to be an apparent lack of resources on 
this front. The EU had pledged about 400 trainers for its police 
training mission last year, yet there are only about 230 on hand. What 
are the chances of persuading the EU and NATO to dramatically increase 
their commitment to this vital task?

    Answer. As U.S. strategy shifts toward building up the Afghan state 
and its army and police, the training function will grow in importance. 
Whereas I do not expect to see European countries make substantial new 
contributions of fighting forces to Afghanistan, I do believe that it 
is possible to expedite and increase Europe's contribution of trainers 
and civilian assistance. These missions are much less controversial 
than those involving combat forces. It would make good sense for the 
United States to stress this issue in its diplomacy with Europe; it 
will not only cause less tension than focus on combat troops, but also 
will more likely result in concrete deliverables. It would be advisable 
to look to the EU to step forward on the training mission as an 
investment in its ability to deploy missions abroad. If so, it will be 
important to improve NATO-EU linkages to ensure good cooperation and 
communication. It is worth noting that at the recent meeting of NATO 
Defense Ministers in Slovakia, European officials expressed strong 
support for the Obama administration's strategy in Afghanistan.

    Question. At the 2009 Strasbourg/Kehl NATO summit, the 
participatory heads of state and government at the North Atlantic 
Council meeting on April 4, 2009, acknowledged the progress of the 
Government of Bosnia and Herzegovina on ``cooperation with NATO, 
including through implementation of its current IPAP, and the country's 
expressed intention to apply for MAP at an appropriate time.'' The 
declaration also urged ``Bosnia and Herzegovina's political leaders to 
take further genuine steps to strengthen state-level institutions and 
reinvigorate the reform process to advance the country's Euro-Atlantic 
aspirations.''
    The Summit Declaration also welcomed Montenegro's ``successful and 
active implementation of its current Individual Partnership Action Plan 
(IPAP) with NATO'' and expressed encouragement regarding ``the reforms 
it has made in a number of areas that are essential to its Euro-
Atlantic integration and also by its contributions to cooperation and 
security in the region. . . . The Council in permanent session is 
keeping Montenegro's progress under active review and will respond 
early to its request to participate in the Membership Action Plan 
(MAP), on its own merits.''

  <bullet> Can Bosnia and Herzegovina and Montenegro contribute to 
        NATO's security rather than act as net consumers of it? As the 
        alliance considers enlargement, what specific capabilities 
        could these two countries add to NATO? How, if at all, do 
        Bosnia and Herzegovina and Montenegro currently contribute to 
        NATO?

    Answer. The urgency of bringing into NATO all the countries of the 
Balkan Peninsula is in the first instance about consolidating peace in 
the region, not strengthening NATO. The prospect of NATO membership, as 
it has done in other parts of Central Europe, serves as an important 
incentive behind political and military reform. In the case of Bosnia 
and Herzegovina, the allure of NATO membership may help bring about 
much-needed political reform--of immediate importance due to the 
dysfunction and ethnic division that continues to compromise the 
country's stability and integrity. Indeed, defense reform has been one 
of the few areas of institutional progress in Bosnia since the Dayton 
Agreement. From this perspective, integrating Bosnia and Herzegovina, 
Montenegro, Serbia, Macedonia, and Kosovo are important investments in 
the future, making it less likely that NATO will again have to 
intervene in the region.
    That having been said, even countries with small defense 
establishments can make important contributions to NATO missions. 
Albania, for example, sent a sizable contingent to Afghanistan, and 
Georgia, another prospective NATO member, dispatched troops to Iraq, as 
did Bosnia. Moreover, the countries of Central Europe often share 
America's strategic perspective on key issues, making them important 
players in helping to forge consensus within the alliance.

    Question. Do you believe that Bosnia and Herzegovina are essential 
elements of U.S. and European security? Does Russia object to Bosnia 
and Herzegovina and Montenegro's further integration into Euro-Atlantic 
institutions in the same way it perceived Georgia's relationship with 
the West? Should this matter? How, if at all, should NATO address such 
concerns?

    Answer. Russia opposes the enlargement of NATO whenever and 
wherever it occurs. However, apart from its staunch opposition to the 
independence of Kosovo, developments elsewhere in the Balkans are not 
of direct and intense interest to Moscow. Whereas Russia for now takes 
a firm position against NATO membership for Georgia and Ukraine, 
membership for Bosnia and Herzegovina or Montenegro is not likely to 
cause undue strain between NATO and Russia. Moreover, Russia has no 
interest in another round of bloodshed in the region, and thus may 
grudgingly accept NATO enlargement as a useful instrument of stability. 
The immediate priority is breaking the political stalemate in Bosnia 
and advancing its fortunes as a unitary state. Diplomacy with Moscow is 
hardly irrelevant, but it should not loom large as the United States 
and NATO advance their own diplomacy in the Balkans.

    Question. NATO has already assisted Bosnia and Herzegovina and 
Montenegro in reforms to the countries' military and Ministry of 
Defense, allowing further participation with the alliance through 
programs such as Partnership for Peace.

  <bullet> Based on your experience, could NATO help reform Bosnia and 
        Herzegovina's political and economic situation, as well as help 
        calm ethnic tensions? In what ways has the alliance already 
        helped resolve such issues in Central and Eastern Europe and 
        elsewhere?

    Answer. The political discipline that regularly results from 
earnest efforts to qualify for NATO membership holds out hope of 
prompting political reform in Bosnia and Herzegovina. Civilian control 
of the military is another important by-product of the process of 
accession.
    NATO has already made clear that it expects Bosnia and Herzegovina 
to move expeditiously to reform its constitution so that the central 
government can function effectively. The alliance has also identified 
measures needed to strengthen the civilian chain of command. Moreover, 
all three of the country's three main communities support NATO 
membership, giving the alliance considerable leverage over political 
reform. The prospect of joining the EU offers an over-the-horizon 
incentive for Bosnia to put its house in order. Inasmuch as NATO 
membership can occur more quickly and speaks directly to the country's 
security and integrity, it provides a more immediate impetus behind 
political reform.
    NATO, in contrast to the EU, does not have a direct role to play in 
speeding economic growth. But accession to the alliance will certainly 
help create the political and security conditions needed to attract 
foreign investment.

    Question. As NATO's relations with the EU evolve, how can the two 
organizations cooperate and complement each other, especially on 21st-
century challenges, such as energy and cyber security, post-conflict 
reconstruction and global climate change? How can NATO and the EU 
effectively delineate shared responsibilities and resources on issues 
like these that combine civilian and military capabilities? How is NATO 
coordinating and consulting with the EU in formulating the new 
Strategic Concept?

    Answer. The transatlantic community sorely needs a stronger 
European pillar, one that would strengthen both the EU and NATO. As 
part of that development, it is important to deepen institutional 
linkages and channels of communication between the two bodies. Some 
issues, such as climate change, do not fall squarely on NATO's agenda. 
Accordingly, it may make sense to upgrade and institutionalize U.S.-EU 
contact. Especially if the institutional reforms contained in the 
Lisbon Treaty succeed in providing the EU with more effective 
leadership and a more common voice, U.S.-EU linkages should evolve in 
step with Europe's collective character.

    Question. Do you think NATO should make energy security an Article 
Five commitment?

    Answer. No. NATO should prepare for operations to defend energy 
infrastructure, such as ports and pipelines. But energy security 
requires a much broader energy policy, much of which lies beyond the 
scope of NATO. Moreover, expanding the definition of Article V might 
risk diluting its core and essential purpose--collective territorial 
defense.
                                 ______
                                 

        Responses of GEN John Craddock to Questions Submitted by
                      Senator Robert P. Casey, Jr.

                 civilian-military cooperation in nato
    General McChrystal's strategic priority in Afghanistan--securing 
the population--requires an integrated and comprehensive civilian-
military approach that includes our NATO allies' military and civilian 
forces, nongovernmental organizations, and local Afghans.

    Question. General Craddock, in your statement, you mentioned that 
the civil-military component to operations is critically important. In 
regard to Afghanistan, what role should our NATO allies play in 
contributing to the civilian surge supported by the Obama 
administration? For NATO allies unlikely to commit more troops, can we 
expect a commitment to assist with reconstruction efforts or Afghan 
police and military training?

    Answer. Our NATO allies can contribute far more in civilian 
expertise than they have done so to date. Every nation in NATO is a 
democracy, with democratic institutions more mature than the current 
state of representative government in Afghanistan. Our allies have 
capabilities and capacities to deploy civilian experts to Afghanistan 
and employ them in a coordinated, integrated effort with UNAMA and 
other international and nongovernmental organizations. The U.S. 
Department of State has made assessments of which nations have a depth 
of capacity which would permit them to send civilian trainers and 
mentors to both federal and provincial ministries in Afghanistan to 
build their capabilities. Can we expect that contribution? Not without 
a strong push by the alliance leader--the United States. With regard to 
our allies' commitment to train the police and military--a good step 
forward is NATO's agreement to support a NATO Training Mission in 
Afghanistan--
NTM-A. NATO has yet to provide the needed resources for that new 
mission--and once again--U.S. leadership will be essential for pushing 
the alliance to resource this critical mission.

    Question. NATO's 2008 Comprehensive Approach created a framework to 
improve civilian-military cooperation and coordination in operations 
planning, stabilization and reconstruction, and public outreach. What 
is your sense of the status of the implementation of the Comprehensive 
Approach on the ground in Afghanistan?

    Answer. In my estimate the implementation of the Comprehensive 
Approach in NATO is a mixed bag. In the fall of 2008, NATO produced a 
document called the Comprehensive Strategy for the Political-Military 
Program (CSPMP) in Afghanistan. Tasks were identified and assigned to 
various NATO agencies for action. Unfortunately, few metrics were 
established, nor was a program for periodic review and assessment 
implemented, thereby leading to an uneven or unevaluated response. I 
believe the military component of NATO in Afghanistan--ISAF--used the 
CSPMP well as an additional tool for resource prioritization and 
assessment, as it fit nicely with the construct of the ISAF Operations 
Plan. With new leadership in NATO headquarters, the time is right to 
push the Secretary General for greater visibility and focus on the 
implementation of the Comprehensive Approach through the CSPMP and the 
military operations plans.
                                 ______
                                 

 Response of Secretary Madeleine K. Albright to Question Submitted by 
                      Senator Robert P. Casey, Jr.

    Question. Our European allies provide about half of the troops in 
the NATO-led International Security Force (ISAF). I commend them for 
their bravery and sacrifice that is often overlooked. I do often hear 
complaints, however, of the caveats imposed by ISAF contributors 
regarding where and how their forces can fight.

  <bullet> Secretary Albright, do you anticipate the new NATO strategic 
        concept to limit the number and types of caveats that NATO 
        participants can impose?

    Answer. NATO's experience in Afghanistan will be a primary source 
of discussion both within the Experts Group and between the group and 
outside interlocutors. We will be particularly interested in the 
lessons that can be learned both about the positive and the more 
troublesome aspects of the NATO mission. One challenge the alliance 
will face is that of applying such lessons in an appropriate and 
effective way to future, perhaps as yet unforeseen, contingencies. 
Certainly, the controversy surrounding the so-called caveats exercised 
by some allies in Afghanistan will fall within the confines of this 
discussion.
                                 ______
                                 

     Responses of Ambassador Kurt Volker to Questions Submitted by
                      Senator Robert P. Casey, Jr.

                            nato and russia
    Despite the NATO-Russia Council partnership and common interests 
such as nonproliferation, counterterrorism, preventing the spread WMD's 
and counternarcotics with NATO, Russia continues to view NATO as a 
chief threat to its security.

    Question. In your opinion, does Russia really want to maintain a 
comprehensive partnership with NATO?

    Answer. I believe that in the 1990s, Russia did indeed want to 
build up a genuine partnership with NATO.
    Today, however, we have seen the emergence of a more authoritarian 
Russia whose priority is to reestablish a sphere of influence in 
neighboring states. It is increasingly apparent that this Russia does 
not seek a genuine partnership with NATO, but rather seeks to constrain 
NATO. At home, the Russia deliberately fans a ``NATO-as-enemy'' 
sentiment through state-controlled media as a means of rallying the 
public to the Kremlin's more aggressive policy both at home and in 
neighboring states.
    Russia's current engagement with NATO seems opportunistic at best, 
and often aimed at sharpening differences among allies--particularly 
between Central and West Europe--while agreeing to work together with 
NATO only in a few select areas.

    Question. What can be done to alleviate the level of mistrust that 
exists between Russia and NATO? Given its incursion into Georgia and 
its increasingly autocratic tendencies, can Russia truly remain a 
valuable partner on what NATO and the United States perceive as common 
interests?

    Answer. By simple virtue of the fact that NATO and Russia must live 
side by side on the Eurasian landmass, we must actively seek to engage 
with Russia, and to work together on common interests. But we must do 
so based on three things: a clear sense of standing up for our 
democratic values; a realistic assessment of Russia's own actions, such 
as in breaking off part of Georgian territory; and a willingness to 
combine both engagement and firmness.
    NATO can also provide some measure of reassurance--such as noting 
that it is a defensive alliance and threatens no one. And that while 
open to new members, it insists on nations being stable, democratic, 
and contributors to common security in the Euro-Atlantic area in order 
to be admitted to the alliance.
    At the moment, NATO is not living up to such an approach. NATO is 
deeply divided over how to deal with Russia--with Central Europeans 
demanding protection and West Europeans insisting on constructive 
engagement. With no unified position, there is no capacity for 
firmness, and Russia continues to see benefit in acting assertively in 
its neighborhood and treating NATO somewhat opportunistically.
    NATO needs to come to a common, balanced, and realistic view of 
dealing with Russia. If we manage this, however, we then will have a 
strong and confident basis from which to engage with Russia. Whether 
this leads to Russia acting as a valuable partner is in Russian hands, 
but this kind of strong, confident outreach from NATO offers the best 
chance to build such partnership.
                                 ______
                                 

        Responses of GEN John Craddock to Questions Submitted by
                           Senator Jim DeMint

    Question. Afghanistan has brought the issue of burden-sharing among 
the alliance members to the forefront. Do you see the issue of 
resources for NATO missions as largely a political problem or purely a 
lack of assets? As the former commander in Europe, what concerns do you 
have about allies' forces and capabilities? What strengths do they 
bring to the table? How would you describe the contributions from the 
newer members of NATO to alliance missions (those who joined the 
alliance in 1999 and since)?

    Answer. I see the sourcing of forces and capabilities for NATO 
missions as both a political and a military capabilities problem. I 
also believe that if all the military capabilities were present as 
needed, shortfalls would still exist in ISAF due to a lack of political 
will by many NATO nations to accept the burden of financial cost and 
the risk of casualties assumed by the deployment of forces. While it is 
true that several of the military capabilities needed in Afghanistan 
are either in short supply or not available outside the United States--
in the mainstream the capabilities exist. What most of the allies have 
not done well is to provide their forces with all the combat enablers 
needed to effectively operate in the austere Afghan environment--either 
because they don't have those enablers in their force structure (yet to 
transform) or because for national reasons they refuse to deploy them. 
With regard to contributions to alliance missions from the newer 
nations--it has exceeded on a per capita basis the contributions from 
most of the older NATO nations. If the newer nations can get help from 
partners for the enablers or modules they may not have in their force 
structure--and sometimes airlift and fiscal support--they send their 
forces almost always when pressed. I believe the severity of the 
economic downturn in Eastern and Central Europe will negatively impact 
on their ability to finance continued high levels of support to these 
missions.

    Question. Do we have the appropriate force structure in Europe to 
meet the training needs and requirements of the alliance as well as 
maintain our bilateral security relationships? If not, what 
recommendations would you make?

    Answer. I am on the record--for the past 2 years--of holding the 
position that the objective U.S. force posture in Europe is inadequate 
for the missions and tasks assigned to the U.S. European Command. Of 
particular note will be--by 2012 if not changed--an acute shortage of 
ground forces and a shortage of tactical fighter aircraft. I have 
recommended to the Department of Defense on several occasions to freeze 
the EUCOM force structure at current levels. Key to this is four 
brigades of Army forces (currently in the U.S. Army Europe force 
structure) and no downsizing of fighter aircraft from current numbers.
                                 ______
                                 

     Responses of Ambassador Kurt Volker to Questions Submitted by
                           Senator Jim DeMint

    Question. I am sure you still maintain close relationships with 
your former colleagues at NATO. From their perspective, what type of 
role do they believe the United States needs to play right now in 
Europe and global security? Is the United States leading the way they 
want or need us to?

    Answer. I believe that our allies continue to want the United 
States to provide committed leadership to NATO, while consulting 
closely and reaching decisions jointly. Allied capabilities are 
limited, and political will is diminishing for the mission in 
Afghanistan--yet they are committed as an alliance to our common cause. 
In this context, and especially in the wake of ISAF Commander 
McChrystal's recommendations, they seek to agree together within NATO 
on our common strategy, and are looking for clear signals of U.S. 
resolve, commitment, and political leadership on Afghanistan.
    A second major issue is Russia. Allies are deeply divided over how 
to deal with a newly assertive, authoritarian Russia: Central Europe 
seeks strategic reassurance and protection, while Western Europe favors 
a policy of entangling Russia through engagement. Only the United 
States can play the role of unifying the transatlantic community around 
a common, well-balanced strategy for dealing with Russia, and allies 
are looking for the United States to assume this role.

    Question. Some have argued that NATO is not worth the effort any 
more, that the United States puts far too much into the alliance for 
what we get out and that NATO's bureaucracy can rival that of the 
United Nations. And with this backdrop, even more people argue that 
NATO enlargement should not occur--especially for countries in the 
Balkans or Eastern Europe that may be seen as a burden on NATO's 
resources rather than contribute to them.

  <bullet> What are your thoughts on the importance of the existing 
        alliance, its enlargement, and where we go from here?

    Answer. Thank you for this important question. It gets to the heart 
of NATO issues today.
    First: NATO has a number of serious problems--but these are not the 
result of NATO enlargement, nor are they a reason to block further 
enlargement.
    The new members of NATO are among the most committed of allies, 
providing significant contributions to NATO operations as percentages 
of population and national troop strength. Estonia has more troops in 
Afghanistan per capita than any other ally. Every ally, no matter how 
small, has troops in Afghanistan. Because of their history and 
geography, they intrinsically grasp the importance of close alliance 
with the United States--supporting the United States in global security 
efforts, while urging continued U.S. engagement in security within 
Europe.
    Moreover, NATO enlargement has increased the secure space in Europe 
where democracy and free markets flourish--enriching the lives of over 
100 million people, and eliminating what would otherwise be a security 
vacuum and strategic vulnerability for NATO in the heart of Europe. 
This is a strategic, security value for the United States.
    Second, the spread of democracy, prosperity, security and stability 
throughout Europe is in the long-term strategic interest of the United 
States, Europe, and the world. NATO enlargement has facilitated the 
movement toward a Europe whole and free, and should continue to do so.
    Western Europe has developed a sense of enlargement fatigue--
particularly because EU enlargement, with its economic integration, has 
gone hand in hand with NATO enlargement. The ``Polish plumber'' 
featured in the French referendum against the EU Constitution because 
French voters feared that past and future enlargement would take away 
French jobs.
    Here again, NATO's newest members--because of their history--are 
the most ardent advocates of further NATO enlargement. They see more 
clearly than others the strategic value for our own security of further 
development of democratic, market-oriented, stable and secure societies 
throughout the entire Euro-Atlantic area.
    Europe is incontrovertibly better off with an enlarged NATO and 
enlarged EU, and the process of performance-based enlargement should 
continue.
    Third, NATO is in serious trouble because of a fundamental lack of 
consensus among the old members of NATO on some of the basics of 
today's security environment: how important is Afghanistan, how to deal 
with Russia, whether NATO is the principal forum for Europe's security 
and defense, how much to invest in defense capabilities, and whether 
NATO should take on certain civil as well as military dimensions of 
global challenges. New members are closer to American views on these 
issues. Old members have differing perspectives, leading to 
``conditional'' contributions.
    To Americans, this is deeply frustrating, given our massive 
commitments within NATO. But the fact is that without our allies, 
America would be facing the challenges in Afghanistan, or Kosovo, or 
piracy, or counterterrorism alone. Afghanistan would be ``America's 
war'' rather than the democratic international community supporting the 
weak population against the strong (and well-funded) violent 
extremists.
    NATO is not working well today. But for NATO to work well, America 
must lead within NATO--offering ideas, sharing decisionmaking, leading 
with commitments and implementation, and in doing so, bringing NATO 
allies together and bringing NATO as a whole forward effectively as a 
strategic contributor to our shared foreign policy requirements.

    Question. It appears that Europeans more often are using other 
organizations and structures to discuss important issues--including 
security. Do you believe this is true and if so what are the 
implications for NATO and the larger issues of U.S., European, and 
global security? What should the United States do to address these 
developments?

    Answer. Yes--to a significant degree, some European allies prefer 
to consult, decide, and act within the EU rather than NATO. This was 
especially apparent over the past year in decisionmaking about dealing 
with piracy off the Horn of Africa.
    There should be no doubt: The emergence of a stronger, more 
cohesive, more decisive, and more effective Europe is clearly in the 
U.S. interest. We need global partners dedicated to democratic ideals, 
and the stronger and more effective they are, the better.
    That said, there are serious risks that must be avoided at the same 
time. Thus far, the EU has not proven itself to be a strong, effective 
partner. To the extent that European nations restrict NATO's freedom of 
maneuver in order to protect a weak EU, we run the risk of letting 
global problems spiral out of control.
    This is a serious danger on its own merits, but also because it 
exposes a larger problem. Some Europeans have in the past seen the EU, 
or ``Europe'' as an alternative to transatlantic partnership with the 
United States. To the extent this attitude would persist, it would 
become a strategic problem, because it divides the democratic, 
prosperous, transatlantic community into pieces.
    The one place where the European nations and the United States sit 
together at one table is NATO--and for this reason alone, it is 
critical that NATO continue to serve as a vehicle for strategic 
consultation and decisionmaking among the U.S. and European allies.
    To address this set of challenges, the United States should 
actively support the development of the European Union, and work to 
build an effective U.S.-EU relationship. This will take a great deal of 
time, and in large measure depends upon Europeans overcoming internal 
divisions within the EU.
    But the United States should never allow U.S.-EU consultations to 
become a substitute for U.S. engagement within NATO on security and 
defense issues, where we all sit together around a single table. This 
is the one place where effective U.S.-European consultations are 
guaranteed--provided the United States does its part in bringing its 
own strategic deliberations to the table. It is also the one place that 
assures interoperability between U.S. and European forces, and 
recognizes the preponderant weight of U.S. capabilities in overall 
transatlantic security efforts. Thus our work within NATO must be 
maintained, even as the EU increases its own capabilities.

    Question. After the invasion of Georgia last year, NATO suspended 
the NATO-Russia Council and over the past year Russia has endorsed the 
idea of a new Pan-European security concept. With your personal 
experience in Brussels, what role have you seen Russia play inside the 
alliance, and their effect on policies and the ability to reach 
consensus? What role do you believe they should play in developing a 
new Strategic Concept?

    Answer. During my year in Brussels, Russia had no serious interest 
in NATO-Russia cooperation, and instead viewed the NATO-Russia 
relationship opportunistically: how Russia could take advantage of, and 
even sharpen, differences among NATO allies over issues such as missile 
defense, Kosovo, nuclear deterrence, and more. When NATO opted to 
resume NATO-Russia military-to-military cooperation after a hiatus 
because of Russia's invasion of Georgia, Russia itself held back on 
such cooperation.
    Russia's call for a new pan-European security concept appears to be 
an effort to break up the three pillars of the Helsinki Final Act, 
which has served as the heart of European security in a broad sense 
since the 1970s. Russia seeks a new deal on hard security in Europe, 
divorced from human rights and economic freedoms. While being open to 
specific Russian proposals to improve existing arrangements, the United 
States and Europe should oppose efforts to dismantle the fundamental 
architecture of European human, economic, and hard security that has 
proved its worth over 30 years.
    As for NATO's Strategic Concept, Russia should play no role 
whatsoever. Because of the commitment that allies have toward each 
other through the Washington treaty, the Strategic Concept is a 
document for their agreement only. It is intended to record consensus 
among allies on the nature of today's security environment, and NATO's 
role in addressing it. As a country that is not a member of NATO, 
Russia--as well as any other nonmember--should have no role.

    Question. Do you believe energy or climate change are issues that 
should be dealt with in the context of the NATO alliance? If so, do you 
believe they should be included under the guarantees of Article V?

    Answer. Climate change itself should not be an Article 5 issue. 
There is no ``attack'' involved. The consequences of climate change 
could, in their most extreme, theoretical variants, contribute to 
localized conflict. Insofar as this occurs, NATO should address this on 
a case-by-case basis.
    Energy security is a different matter. Article 5 expresses a 
commitment of allies to consult and take appropriate actions in the 
event of an attack. This should not change. We should, however, 
recognize that the security environment in which we must carry out this 
commitment has changed dramatically over time.
    I believe that the shutoff of energy supplies to a NATO Member 
State--if done deliberately by an outside actor to influence or cause 
harm--should be considered an ``attack'' just as if it were a military 
attack. This does not mean that all energy issues, including supply 
disruptions, should be seen as Article 5 issues. But it does mean they 
have the potential to be Article 5 issues, depending on the 
circumstance.
    With that in mind, NATO should consult among allies at strategic 
levels, coordinate with outside entities, such as the EU, national 
energy ministries, and energy companies, and conduct prudent planning 
in the event that energy disruptions do rise to the level of an 
``attack'' and thus an Article 5 concern.

                                  <all>

</pre></body></html>
